Appendix Table of Contents
Opinion of the United States Court of Appeals, Ninth
Circuit............................................................................2
Memorandum Opinion And Order Re: Motion To
Dismiss And Motion For Cr 11 Sanctions of United
States District Court, E.D. Washington......................6
Opinion and Ruling by the Washington State Court
of Appeals, Division III...............................................28
Oral Ruling by Trial Court on Motion for
Reconsideration of Order Appointing Special Master
......................................................................................60
Ex Parte Order Appointing Special Master, Spokane
County Superior Court...............................................71
Ex Parte Letter from J. O'Connor, Spokane County
Superior Court............................................................74
Ex Parte Letter from J. O'Connor, Spokane County
Superior Court............................................................75
Ex Parte Letter from J. O'Connor, Spokane County
Superior Court............................................................78
Supreme Court of the State of Washington Grant, in
part, Stay of Suspension............................................80
Ex Parte Letter from Comm’r Anderson, Spokane
County Superior Court...............................................82
Supreme Court of the State of Washington Ruling of
Suspension of Guardian.............................................84
RCW 11.88.120 Modification or termination of
guardianship—Procedure..........................................86
Declaration of Judge Kathleen M. O'Connor's.........91
Declaration of Anastasia Fortson­Kemmerer...........97

Appendix
2
Opinion of the United States Court of Appeals,
Ninth Circuit
United States Court of Appeals, Ninth Circuit
Nos. 17­35678, 17­35717

HALLMARK CARE SERVICES, INC., DBA
Castlemark Guardianship and Trusts, DBA Eagle
Guardianship, a Washington Corporation; LORI
PETERSEN, DBA Empire Care Services, Plaintiffs­
Appellees,
v.
SUPERIOR COURT OF THE STATE OF
WASHINGTON

FOR

SPOKANE

COUNTY;

SPOKANE COUNTY, Defendants­Appellants.
June 17, 2020
NOT FOR PUBLICATION
Submitted
Washington

June

3,

2020

[**]

Seattle,

Appeal from the United States District Court
for the Eastern District of Washington D.C. No. 2:17­
cv­00129­JLQ Justin L. Quackenbush, District
Judge, Presiding
Before: GOULD, BEA, and MURGUIA, Circuit
Judges.

Appendix
3
MEMORANDUM[*]
Hallmark Care Services, Inc., and Lori
Petersen (collectively, Hallmark) appeal the district
court's grant of Spokane County's and Spokane
County Superior Court's motion to dismiss. The
County and the Superior Court cross­appeal the
district court's denial of the County's and Court's
motion for sanctions under Federal Rule of Civil
Procedure 11.
We have jurisdiction under 28 U.S.C. § 1291.
We review dismissals under Rooker­Feldman de
novo, Bianchi v. Rylaarsdam, 334 F.3d 895, 898 (9th
Cir. 2003), dismissals based on immunity de novo,
Olsen v. Idaho State Bd. of Med., 363 F.3d 916, 922
(9th Cir. 2004), and denials of Rule 11 sanctions
motions for an abuse of discretion, Cooter & Gell v.
Hartmarx Corp., 496 U.S. 384, 405 (1990).
We affirm. Because the parties are familiar
with the facts and procedural history of the case, we
recite only those facts necessary to decide this
appeal.
Hallmark's suit is barred by the Rooker­
Feldman doctrine because the suit is functionally an
appeal of a state­court judgment. See 28 U.S.C. §
1257; Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284 (2005). If a federal court gave
Hallmark the relief sought, damages compensating

Appendix
4
Hallmark for the harm the state­court judgment
caused, then the state­court judgment would be
effectively nullified. See Cooper v. Ramos, 704 F.3d
772, 779 (9th Cir. 2012).
Even if Rooker­Feldman did not preclude
subject­matter jurisdiction, the suit is barred by
judicial immunity. The Superior Court had
jurisdiction, see Wash. Rev. Code § 11.88.010(1),
11.88.120(1); In re Guardianship of Lamb, 265 P.3d
876, 883 (Wash. 2011), and the Superior Court's
conduct was judicial. Ashelman v. Pope, 793 F.2d
1072, 1075­78 (9th Cir. 1986) (en banc). Procedural
errors do not allow a litigant to circumvent judicial
immunity. See Stump v. Sparkman, 435 U.S. 349,
359 (1978).
Finally, the district court did not abuse its
discretion in denying the County's and the Court's
motion for Rule 11 sanctions. See Fed. R. Civ. P. 11.
The district court concluded that the suit was not
objectively legally baseless, see Holgate v. Baldwin,
425 F.3d 671, 676 (9th Cir. 2005), and we see no
compelling reason why that conclusion was outside
the ambit of the district court's broad discretion in
such matters.
AFFIRMED.[1]

Appendix
5
­­­­­­­­­
Notes:
[*] This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36­3.
[**] The panel unanimously concludes this case is
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).
[1] Hallmark's Motion to Supplement the Record on
Appeal, Dkt. 33, is DENIED.

Appendix
6
Memorandum Opinion And Order Re: Motion
To Dismiss And Motion For Cr 11 Sanctions of
United States District Court, E.D. Washington
United States District Court, E.D. Washington
No. 2:17­CV­00129­JLQ
HALLMARK CARE SERVICES, INC., et al.,
Plaintiffs,
v.
SUPERIOR COURT OF STATE OF
WASHINGTON FOR SPOKANE COUNTY;
SPOKANE COUNTY, Defendants.
July 27, 2017
MEMORANDUM OPINION AND ORDER RE:
MOTION TO DISMISS AND MOTION FOR CR 11
SANCTIONS
JUSTIN L. QUACKENBUSH SENIOR
UNITED STATES DISTRICT JUDGE
BEFORE THE COURT is the Defendants'
Motion to Dismiss (ECF No. 11) and Defendants'
Motion for CR 11 Sanctions (ECF No. 18). After the
Motion to Dismiss was filed, the court directed the
parties to address the Rooker­Feldman doctrine in
the Response and Reply briefs because it was not
addressed in the Motion. See (ECF No. 16). The
parties submitted response and reply briefs on both

Appendix
7
Motions. This Order memorializes the court's ruling
on the Motions.
I. Introduction/Background
All well­pleaded facts are accepted as true for
the purposes of the Motion to Dismiss.
On March 13, 2015, the Washington State
Supreme Court issued an order suspending Lori
Petersen from the practice of guardianship for one
year. See (ECF No. 1­ 1 at 2­3).[1] The Supreme
Court also ordered Petersen to pay costs to the
Certified Professional Guardian Board. (ECF No. 1­1
at 3). The suspension was set to begin on March 20,
2015. (ECF No. 1­1 at 2­3).
On March 17, 2015, Spokane County Superior
Court Commissioner Rachelle Anderson sent a letter
to Petersen acknowledging receipt of the Supreme
Court order and directing Petersen to submit a
“specific plan as to each individual you represent” no
later than 4:00 p.m. on March 19, 2015. (ECF No. 1­1
at 5). The letter attached a list of guardianship cases,
some of which were assigned to Petersen, and others
to Hallmark Care Services, Inc. (“Hallmark”), doing
business as Castlemark Guardianship and Trust
(“Castlemark”), and Hallmark Care Services, Inc.,
doing business as Eagle Guardianship and
Professional Services (“Eagle”). (ECF No. 1 at ¶14).

Appendix
8
On March 18, 2015, attorney John Pierce,
representing Petersen, sent a letter to Commissioner
Anderson stating counsel was filing a motion with
the Washington Supreme Court seeking to stay the
suspension for 60 to 90 days. (ECF No. 1­1 at 7).
Counsel's letter disclosed Petersen would be
petitioning the court to transfer her cases to another
guardian, but asserted the process would take
“approximately 4­6 weeks.” (ECF No. 1­1 at 7­8).
Additionally, counsel disputed whether cases
assigned to Castlemark or Eagle were subject to the
suspension order. (ECF No. 1­1 at 7).
On March 26, 2015, the Washington Supreme
Court granted a stay of the suspension to allow
Petersen to work with the Certified Professional
Guardian Board to ensure her clients were properly
transferred to another guardian. (ECF No. 1 at ¶18).
On April 1, 2015, Lewis County Superior
Court Judge James Lawler, a member of the
Certified Professional Guardian Board, sent Petersen
a letter stating the Board would review the status of
all guardianships associated with Petersen. (ECF No.
1­1 at 10). The letter directed Petersen to provide
information by April 10, 2015, including: all
guardianship appointments in the name of Lori
Petersen, Empire Care, Castlemark, Hallmark, or
Eagle; a plan for compliance with transferring her
cases to another guardian; and information about

Appendix
9
every person associated with any guardianship
business where Petersen was a designated guardian
or an individual certified professional guardian.
(ECF No. 1­1 at 10­11).
On April 1, 2015, Hallmark held a
shareholders meeting and elected a new director,
officer, and proxy to ensure Petersen was not
involved in the business during her one year
suspension. (ECF No. 1 at ¶¶22­23). Hallmark also
added another professional guardian. (ECF No. 1 at
¶24).
On April 7, 2015, Hallmark received four
documents from the Spokane County Superior Court
Guardianship Monitoring Program Coordinator.
(ECF No. 1 at ¶27). The first document was a letter
from Spokane County Superior Court Judge
Kathleen O'Connor addressed to Hallmark stating
“Hallmark/Castlemark/Eagle's ownership is in
question” because the ownership was “confidential.”
(ECF No. 1­1 at 19). Because ownership had not been
disclosed to the court “[d]espite inquiries on multiple
occasions, ” the letter stated Petersen's association
with those agencies was brought “into question.”
(ECF No. 1­1 at 19). The letter stated “[t]he Court
will not appoint as a successor guardian any certified
professional guardian associated with Hallmark or
with entities falling under the Hallmark umbrella.”
(ECF No. 1­1 at 19). Additionally, the letter stated a

Appendix
10
special master would be appointed “to oversee the
transition process and individual guardians ad litem
will determine successor guardians.” (ECF No. 1­1 at
19). Lastly, the letter required Hallmark to post a
$100, 000 surety bond to secure payment of fees.
(ECF No. 1­1 at 19).
The second document was a letter from Judge
O'Connor to local certified professional guardians.
(ECF No. 1­1 at 21). The letter disclosed that
guardians ad litem would be contacting the
recipients “to take on several cases due to the recent
suspension of CPG Lori Petersen.” (ECF No. 1­1 at
21).
The third document was a letter from Judge
O'Connor to local guardians ad litem informing them
the court would be assigning 125 cases “currently
assigned to Ms. Petersen and/or agencies with which
she is involved.” (ECF No. 1­1 at 21).
The final document was an Order Appointing
Special Master, signed by Spokane County Superior
Court Judge Ellen Kalama Clark for the 125 cases
discussed in the prior letters. (ECF No. 1­1 at 26­32).
The Order appointed retired Superior Court Judge
Paul Bastine as special master. (ECF No. 1­1 at 31).
On April 7, 2015, attorney Pierce, representing
Hallmark, sent a letter to Judge Lawler in response
to the April 1 letter. (ECF No. 1­1 at 15­17). The

Appendix
11
letter states Petersen was in the process of
“transferring certain cases” to Hallmark. (ECF No. 1­
1 at 15). The letter stated Hallmark had moved to be
appointed as successor guardian in Petersen's cases.
(ECF No. 1­1 at 15). The letter also referred to letters
and orders from Judge O'Connor and Judge Kalama
Clark. (ECF No. 1­1 at 15­16).
On April 17, 2015, Petersen and Hallmark
contested the actions of the Spokane County Superior
Court by filing a motion for reconsideration. (ECF
No. 1 at ¶34). The motion for reconsideration argued
the Superior Court: (1) lacked jurisdiction to expand
on the Supreme Court Order suspending Petersen;
(2) lacked authority to order the $100, 000 bond and
appointment of special master; and (3) failed to give
Hallmark due process because it allegedly did not
receive notice or a right to appear and defend against
the Order Appointing Special Master. (ECF No. 1 at
¶34). The motion also sought clarification of a
number of issues regarding who was presiding over
the reassignment of guardianships and whether
there was a hearing that led to the Order Appointing
Special Master. (ECF No. 1 at ¶35).
On May 4, 2015, Spokane County Superior
Court Commissioners held a hearing wherein
Petersen and Hallmark were removed as guardians
of record. (ECF No. 1 at ¶36). Counsel for Hallmark
and Petersen was present at the hearing and

Appendix
12
objected to the removal of his clients in each of the
cases. (ECF No. 1 at ¶¶38­39).
On May 8, 2015, a deputy prosecutor from the
Spokane County Prosecutor's Office entered a limited
notice of appearance on behalf of the Spokane
County Superior Court. (ECF No. 1 at ¶42). The
deputy prosecutor then filed a memorandum in
support of the court's Order and actions taken with
regard to Petersen and Hallmark. (ECF No. 1 at
¶44).
On May 13, 2015, a hearing was held where
counsel for Petersen and Hallmark was present, but
the deputy prosecutor was not. (ECF No. 1 at ¶46).
Counsel informed the court that a deputy prosecutor
had appeared on behalf of the Superior Court and
asserted the hearing should be postponed until the
deputy prosecutor was present. (ECF No. 1 at ¶47).
The hearing proceeded without the deputy prosecutor
present. (ECF No. 1 at ¶47).
On May 18, 2015, Petersen and Hallmark's
motion for reconsideration was heard by Judge
Kalama Clark. (ECF No. 1 at ¶¶50, 52). Counsel for
Petersen and Hallmark presented argument on the
issues raised in the motion. (ECF No. 1 at ¶51). In
the court's ruling on the motion, Judge Kalama Clark
stated the court was the petitioner in the proceedings
and the Order Appointing Special Master was

Appendix
13
presented ex parte. (ECF No. 1 at ¶52). It appears
the court denied the motion for reconsideration. See
(ECF No. 1 at ¶52).
On May 13, 2015, Petersen and Hallmark filed
a notice of appeal to Division III of the Washington
Court of Appeals regarding the Order Appointing
Special Master. See In re Guardianship of Holcomb,
No. 33356­6, Dkt. #1 (Wash.Ct.App. Div. III). On
July 23, 2015, the Court of Appeals issued a motion
to determine appealability. (Id. at Dkt. #26); (ECF
No. 12­1 at 23). After receiving briefing, a
Commissioner for the Court of Appeals issued an
order on August 26, 2015. (ECF No. 12­1). The
Commissioner found neither Petersen nor Hallmark
were aggrieved parties based on their removal as
guardians. (ECF No. 12­1 at 23­25). The
Commissioner further found Hallmark was an
aggrieved party as to the order assessing fees against
it. (ECF No. 12­1 at 26).
A review of the online docket shows the state
court appeal was eventually dismissed by Division
III in April 2017, and a motion for discretionary
review was filed in the Washington Supreme Court
on May 1, 2017. See No. 33356­6 (Wash.Ct.App. Div.
III); Dkt. #1, No. 94454­7 (Wash. Sup. Ct.). The
Washington Supreme Court denied the motion on
June 22, 2017 and no further filings have been made.
See No. 94454­7 (Wash. Sup. Ct.).

Appendix
14
On April 6, 2017, Petersen and Hallmark
(“Plaintiffs”) initiated the instant federal court action
by filing the Complaint. (ECF No. 1). The Complaint
alleges six causes of action against the Spokane
County Superior Court and Spokane County
(“Defendants”): (1) lack of due process by failing to
follow the state rules of civil procedure and local
court rules regarding initiating a civil action; (2)
judicial abuse of authority by taking ex parte action
against and issuing ex parte orders against Petersen
and Hallmark in cases those judges and
commissioners were not assigned; (3) lack of due
process by failing to follow the process for removal of
a guardian under the Revised Code of Washington;
(4) lack of due process by failing to follow the process
set forth by the Certified Professional Guardian
Board for removal of a guardian; (5) lack of due
process by failing to give due regard to the
definitions of good standing for a certified
professional guardian or certified professional
guardianship under state court rules; and (6) breach
of the separation of powers doctrine by taking
executive administrative actions against Petersen
and Hallmark. (ECF No. 1 at ¶¶58­67).
On May 19, 2017, Defendants filed the Motion
to Dismiss (ECF No. 11). The Motion argues
Defendants are entitled to absolute judicial
immunity, Plaintiffs lack any property right in

Appendix
15
continued guardianships, and Plaintiffs' claims are
barred by res judicata. (ECF No. 11). On June 8,
2017, the court held a telephonic hearing in this
matter wherein the court raised the issue of whether
Plaintiffs' claims are barred under the Rooker­
Feldman doctrine and subsequently issued an Order
on this issue. (ECF No. 16). On June 15, 2017,
Plaintiffs filed a Response to the Motion to Dismiss
and addressed the Rooker­Feldman doctrine. (ECF
No. 17). On June 27, 2017, Defendants filed a Reply.
(ECF No. 20).
On June 20, 2017, Defendants filed a Motion
for CR 11 Sanctions. (ECF No. 18). The Motion seeks
costs and attorneys' fees based on Plaintiffs' claims
being frivolous. (ECF No. 18). On June 23, 2017,
Plaintiffs filed a Response. (ECF No. 19). On June
28, 2017, Defendants filed a Reply. (ECF No. 22).
Both the Motion to Dismiss and Motion for
Sanctions were submitted for decision without oral
argument.

II. Discussion
A. Motion to Dismiss
To survive a motion to dismiss, the pleading
must allege sufficient facts, which, accepted as true,
“state a claim to relief that is plausible on its face.”

Appendix
16
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). A claim is plausible on its face when “the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009). In considering a
motion to dismiss under Fed.R.Civ.P. 12(b)(6), “the
court accepts the facts alleged in the complaint as
true.” Balistreri v. Pacifica Police Dept., 901 F.2d
696, 699 (9th Cir. 1990). However, a claim may be
dismissed “based on the lack of a cognizable legal
theory.” (Id.). While a court may not generally
consider evidence outside of the complaint in a
Fed.R.Civ.P. 12(b)(6) motion, the court may consider
“material which is properly submitted as part of the
complaint” and documents the complaint “necessarily
relies” on and whose authenticity “is not contested.”
Lee v. City of Los Angeles, 250 F.3d 668, 688 (9th Cir.
2001) (quoting Parrino v. FHP, Inc., 146 F.3d 699,
705­06 (9th Cir. 1998)). A motion brought under
Fed.R.Civ.P. 12(c) is “functionally identical” to a
motion under Fed.R.Civ.P. 12(b)(6) and courts apply
the “same standard.” Dworkin v. Hustler Magazine,
Inc., 867 F.2d 1188, 1192 (9th Cir. 1989). The
“principal difference” between the two motions “is the
tim[ing] of filing.” (Id.).
1. Rooker­Feldman

Appendix
17
Under Rooker­Feldman, “a federal district
court does not have subject matter jurisdiction to
hear a direct appeal from the final judgment of a
state court.” Noel v. Hall, 341 F.3d 1148, 1154 (9th
Cir. 2003). The doctrine takes its name from two
Supreme Court decisions: Rooker v. Fidelity Trust,
263 U.S. 413 (1923) and District of Columbia v.
Feldman, 460 U.S. 462 (1983).
Federal courts must dismiss the complaint “if
claims raised in the federal court action are
‘inextricably intertwined' with the state court's
decision such that the adjudication of the federal
claims would undercut the state ruling or require the
district court to interpret the application of state
laws or procedural rules.” Bianchi v. Rylaarsdam,
334 F.3d 895, 898 (9th Cir. 2003); see Worldwide
Church of God v. McNair, 805 F.2d 888, 892 (9th Cir.
1986) (“claims are ‘inextricably intertwined' if the
district court must ‘scrutinize not only the challenged
rule itself but the [state court's] application of the
rule.”). “Rooker­Feldman looks to federal law to
determine ‘whether the injury alleged by the federal
plaintiff resulted from the state court judgment itself
or is distinct from that judgment.” Bianchi, 334 F.3d
at 900­01 (quoting Garry v. Geils, 82 F.3d 1362, 1365
(7thCir. 1996)); see also, (id. at 900) (stating the
Rooker­Feldman doctrine “does not require [the
federal court] to determine whether or not the state

Appendix
18
court fully and fairly adjudicated the constitutional
claim. Nor is it relevant whether the state court's
decision is res judicata or creates the law of the case
under state law.”).
Plaintiffs argued to the Spokane County
Superior Court that the actions taken were
unconstitutional, beyond statutory and court rule
authority, and were done ex parte without notice or
opportunity to be heard by Plaintiffs. See (ECF No. 1
at ¶¶34, 46­47). When their motion was denied,
Plaintiffs appealed to the Washington State Court of
Appeals and Washington State Supreme Court. See
(ECF No. 12­1); In re Guardianship of Holcomb, No.
33356­6 (Wash.Ct.App.
(Wash.).

Div.

III);

No.

94454­7

Each of Plaintiffs' six causes of action herein
challenges the specific acts taken against Plaintiffs
and alleges those acts were unconstitutional. See
(ECF No. 1 at ¶¶58­67). Plaintiffs seek damages for
“the wrongful damage to the businesses of Hallmark
and Petersen including the wrongful taking, without
due process, of all of the Plaintiff's [sic] goodwill and
going concern of their business.” (ECF No. 1 at ¶68).
To find for Plaintiffs on any one of their claims, the
court would have to evaluate and find the acts of the
Spokane
County
Superior
Court
were
unconstitutional. Plaintiffs seek to have this court
reverse the decisions of the state court system, which

Appendix
19
is improper and lies beyond this court's subject
matter jurisdiction. It is immaterial that those
arguments were rejected on procedural grounds on
appeal.
To the extent Plaintiffs bring new claims for
damages, those claims are inextricably intertwined
with the state court decisions. Awarding damages for
loss of business goodwill presumes a finding of
unconstitutional conduct by the state court. Such
arguments are indistinguishable from the arguments
made in the state proceedings. Whether Plaintiffs
initiated the state court proceedings is immaterial
for the Rooker­Feldman doctrine, and Plaintiffs cite
no cases suggesting otherwise. To the extent the time
to seek modification of the Washington Supreme
Court's order denying the motion for discretionary
review has not passed, the fact the appeal may be
technically ongoing does not prevent application of
Rooker­Feldman. See In re Birting Fisheries, Inc.,
300 B.R. 489, 498 n.9 (9th Cir. 2003); In re Metcalf,
92 Wn.App. 165, 175 n.6 (1998).
For all of the above reasons, the court finds
this matter should be dismissed as a de facto appeal
of state court decisions. Any new claims are
inextricably intertwined with the state court
decisions and this court could not render judgment
for Plaintiffs without disturbing the findings made
by the state courts. Additionally, as shown below, the

Appendix
20
claims are subject to dismissal based on judicial
immunity.
2. Judicial Immunity
“It is well settled that judges are generally
immune from suit for money damages.” Duvall v.
County of Kitsap, 260 F.3d 1124, 1133 (9th Cir.
2001); see Adkins v. Clark County, 105 Wn.2d 675,
677 (1986) (“It is well settled judges are immune
from liability for damages from acts committed
within their judicial capacity, even if accused of
acting maliciously and corruptly”). “[J]udicial
immunity does not apply to non­judicial acts, i.e. the
administrative, legislative, and executive functions
that judges may on occasion be assigned to perform.”
Duvall, 260 F.3d at 1133; see Adkins, 105 Wn.2d at
677­78 (“To find liability, the actions of the defendant
judge must be in clear absence of all jurisdiction, not
simply in excess of jurisdiction.... acts by a judge or
judicial officer will be protected by immunity from
civil action for damages if they are intimately
associated with the judicial process.”).
“[A] judge will not be deprived of immunity
because the action he took was in error ... or was in
excess of his authority.” Mireles v. Waco, 502 U.S. 9,
12­13 (1991) (quotation and citation omitted).
“Judicial immunity applies ‘however erroneous the
act may have been, and however injurious in its

Appendix
21
consequences it may have proved to the plaintiff.'”
Ashelman v. Pope, 793 F.2d 1072, 1075 (9th Cir.
1986). Judicial immunity is only overcome if the
actions were “nonjudicial actions, i.e., actions not
taken in the judge's judicial capacity” or were
“actions, though judicial in nature, taken in the
complete absence of all jurisdiction.” Mireles, 502
U.S. at 11­12.
The Ninth Circuit considers four factors to
determine whether an act is judicial in nature: (1)
“the precise act is a normal judicial function”; (2) “the
events occurred in the judge's chambers”; (3) “the
controversy centered around a case then pending
before the judge”; and (4) “the events at issue arose
directly and immediately out of a confrontation with
the judge in his or her official capacity.” Duvall, 260
F.3d at 1133 (quoting Meek v. County of Riverside,
183 F.3d 962, 967 (9th Cir. 1999)). “These factors are
to be construed generously in favor of the judge and
in light of the policies underlying judicial immunity.”
Ashelman, 793 F.2d at 1076; see also, (id.)
(“Jurisdiction should be broadly construed
effectuate the policies supporting immunity”).

to

Washington statutory law states “[a]t any time
after establishment
of a
guardianship or
appointment of a guardian, the court may, upon the
death of the guardian or limited guardian, or, for
other good reason, modify or terminate the

Appendix
22
guardianship or replace the guardian.... Such action
may be taken based on the court's own motion.” RCW
11.88.120(1)(a); see In re Hemrich's Guardianship,
187 Wn. 21, 26 (1936) (“Acting under the authority of
this statute, the court always has power, under
proper circumstances, to remove a guardian”).
“Although governed by statute, guardianships are
equitable creations of the court and it is the court
that retains ultimate responsibility for protecting the
ward's person and estate.” In re Guardianship of
Lamb, 173 Wn.2d 173, 184 (2011) (quoting In re
Guardianship of Hallauer, 44 Wn.App. 795, 797
(1986)); see RCW 11.92.010 (“Guardians ... shall at
all times be under the general direction and control
of the court making the appointment.”). “The court
having jurisdiction of a guardianship matter is said
to be the superior guardian of the ward, while the
person appointed guardian is deemed to be an officer
of the court.” In re Lamb, 173 Wn.2d at 190 (quoting
Seattle First National Bank v. Brommers, 89 Wn.2d
190, 200 (1977)).
Contrary to Plaintiffs' argument, the state
court could lawfully initiate removal proceedings
against Plaintiffs as guardians. As such, Defendants
were not acting “in the clear absence of jurisdiction.”
Rather, the Defendants were acting in a normal
judicial function. Whether the statutory procedure
was fully followed is immaterial to determine

Appendix
23
whether judicial immunity attaches. As there is
statutory authority for the court to initiate removal
proceedings, the court finds Defendants acted in a
normal judicial function.
Plaintiffs admit they “have no idea where
these events occurred.” (ECF No. 17 at 8). The fact
Plaintiffs lack personal knowledge is not dispositive
in determining whether the events at issue took
place in the judge's chambers. All letters were sent
on the Superior Court letterhead, and the Order
Appointing Special Master bore the signature of
Judge Kalama Clark and the seal of the Clerk of the
Court. Judge Kalama Clark allegedly stated the
Order was presented ex parte. This court has no
basis to believe these acts were done anywhere other
than in the state court judge's chambers.
Accordingly, the court finds the acts occurred within
the judge's chambers.
As discussed above, the Spokane County
Superior Court had the statutory right to initiate
removal proceedings. See RCW 11.88.120(1)(a). The
removal proceedings, while initiated by the court,
constitute a case then pending before the court.
Plaintiffs' contentions otherwise are unpersuasive.
The fact it was initiated by the court does not
disqualify it as a pending case, nor does the timing
thereof change the analysis. Plaintiffs' claims
regarding the failure to follow statutory procedures

Appendix
24
for removal is not before this court. See supra §(A)(1).
For these reasons, the court finds the actions of
Defendants concerned a then­pending case.
The court observes the unusual factual history
of this case where the state court proceedings were
initiated by the state court and were not in response
to a particular confrontation. However, the fact the
matter was initiated by the state court does not
make it any less judicial in nature. See Ashelman,
793 F.2d at 1078 (“As long as the judge's ultimate
acts are judicial actions taken within the court's
subject matter jurisdiction, immunity applies.”). The
entirety of the proceedings were in fact a
confrontation with state court judges acting in their
judicial capacity. While the state court was the
initiator, this court finds the events at issue were
immediately and directly related to acts performed in
a judicial capacity.
In light of all of the foregoing, the court finds
Defendants are entitled to judicial immunity. Based
on the court's rulings on the Rooker­Feldman
doctrine and judicial immunity, the court will not
address the other arguments in the Motion to
Dismiss.
B. Motion for Fed.R.Civ.P. 11 Sanctions
Defendants' Motion for Sanctions argues: (1)
“Plaintiffs' claims are not warranted by existing law

Appendix
25
or by a nonfrivolous argument for modifying or
reversing existing law”; and (2) “[a]ny attorney
conducting a reasonable inquiry of the law before
filing these claims would have discovered that they
are legally baseless.” (ECF No. 18 at 3). Plaintiffs
assert the Motion for Sanctions “is a red herring ­ an
attempted distraction by a party who is terrified of
the facts that will come out through discovery in the
course of this action.” (ECF No. 19 at 10). The
majority of the parties' briefs re­argue the merits of
the claims addressed at length in the Motion to
Dismiss briefing.
In the Reply, Defendants, for the first time,
cite 42 U.S.C. § 1988 as a basis for an award of
attorney's fees. See (ECF No. 22 at 2). The court will
not consider this basis because it was not raised in
the Motion for Sanctions and because Defendants do
not otherwise argue or establish a basis for an award
pursuant to that statute.
“By presenting to the court a pleading, written
motion, or other paper ... an attorney ... certifies that
to the best of the person's knowledge, information,
and belief, formed after an inquiry reasonable under
the circumstances: (1) it is not being presented for
any improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of
litigation; [and] (2) the claims, defenses, and other
legal contentions are warranted by existing law or by

Appendix
26
a nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law.”
Fed.R.Civ.P. 11(b)(1)­(2). When the complaint is the
focus of a motion brought pursuant to Fed.R.Civ.P.
11, “a district court must conduct a two­prong
inquiry to determine (1) whether the complaint is
legally or factually baseless from an objective
perspective, and (2) if the attorney has conducted a
reasonable and competent inquiry before signing and
filing it.” Holgate v. Baldwin, 425 F.3d 671, 676 (9th
Cir. 2005) (quotation marks and citation omitted).
For this test, the term “frivolous” means “a filing that
is both baseless and made without a reasonable and
competent inquiry.” (Id.) (emphasis in original)
(citation omitted).
As discussed at length supra, the court found
Plaintiffs' claims barred under the Rooker­Feldman
doctrine and by judicial immunity. While Defendants
are clearly entitled to dismissal of Plaintiffs' claims,
the court does not find Plaintiffs' claims are baseless
or frivolous. The fact defense counsel did not raise
Rooker­Feldman until the court brought it to
counsel's attention demonstrates the claims were not
objectively baseless. The court does not find counsel
failed to conduct a reasonable inquiry before filing
the Complaint.

Appendix
27
III. Conclusion
Plaintiffs' claims herein are the same and
inextricably intertwined with those made in the
Washington state court proceedings. Plaintiffs'
arguments against application of the Rooker­
Feldman

doctrine

are

unavailing.

Additionally,

Defendants are entitled to judicial immunity. While
the court finds dismissal appropriate, the court does
not find Plaintiffs' claims frivolous or baseless.
Accordingly, the Motion to Dismiss is Granted and
the Motion for Sanctions is Denied.

IT IS HEREBY ORDERED:
1. The Motion to Dismiss (ECF No. 11) is GRANTED
as set forth herein.
2. The Motion for CR 11 Sanctions (ECF No. 18) is
DENIED as set forth herein.
3. The Clerk is directed to enter Judgment
dismissing the Complaint (ECF No.1) and the claims
therein WITH PREJUDICE and without costs or
attorneys' fees to any party.

IT IS SO ORDERED. The Clerk is hereby directed to
enter this Order and Judgment, furnish copies to
counsel, and close this file.

Appendix
28
Opinion and Ruling by the Washington State
Court of Appeals, Division III
IN THE COURT OF APPEALS OF THE STATE OF
WASHINGTON DIVISION THREE
No. 33356­6­III
In the Matter of the Guardianship of
JUDITH D. HOLCOMB
and
OTHER SIMILAR CASES
CONSOLIDATED ON APPEAL†
UNPUBLISHED OPINION
(Filed October 18, 2018)
† No. 33357­4­III, In re Guardianship of St. Peter;
No. 33358­2­III, In re Guardianship of Wiegele;
No. 33359­1­III, In re Guardianship of Daniel;
No. 33360­4­III, In re Guardianship of Adams;
No. 33362­1­III, In re Trust of Hartley;
No. 33363­9­III, In re Guardianship of Ard;
No. 33364­7­III, In re Guardianship of Wright;
No. 33365­5­III, In re Guardianship of Friesen;
No. 33366­3­III, In re Guardianship of Reed;
No. 33367­1­III, In re Guardianship of Bowers;
No. 33368­0­III, In re Special Needs Trust of
Harmon;
No. 33369­8­III, In re Guardianship of Cornelius;
No. 33370­1­III, In re Guardianship of Mateer;

Appendix
29
No. 33371­0­III, In re Guardianship of Harris;
No. 33372­8­III, In re Trust of Elvidge;
No. 33373­6­III, In re Guardianship of Fulton;
No. 33374­4­III, In re Guardianship of Zauner;
No. 33375­2­III, In re Guardianship of Martin;
No. 33376­1­III, In re Guardianship of Mateer;
No. 33377­9­III, In re Guardianship of Carey;
No. 33378­7­III, In re Guardianship of Olson;
No. 33379­5­III, In re Guardianship of Nalley;
No. 33380­9­III, In re Guardianship of Nichols;
No. 33381­7­III, In re Guardianship of Smelcer;
No. 33382­5­III, In re Guardianship of Olson;
No. 33383­3­III, In re Guardianship of Fairbanks;
No. 33384­1­III, In re Guardianship of Collier;
No. 33385­0­III, In re Guardianship of Blair;
No. 33386­8­III, In re Guardianship of Vogel;
No. 33387­6­III, In re Guardianship of Campbell;
No. 33388­4­III, In re Guardianship of Fenske;
No. 33389­2­III, In re Guardianship of Sullivan;
No. 33390­6­III, In re Guardianship of Higgins;
No. 33391­4­III, In re Guardianship of Tuckerman;
No. 33392­2­III, In re Guardianship of Wharton;
No. 33393­1­III, In re Guardianship of Weiland;
No. 33394­9­III, In re Guardianship of Vingo;
No. 33395­7­III, In re Guardianship of Morales;
No. 33396­5­III, In re Guardianship of Morales;
No. 33397­3­III, In re Guardianship of Moore;
No. 33398­1­III, In re Guardianship of Stanich;
No. 33399­0­III, In re Guardianship of Hopper;
No. 33400­7­III, In re Guardianship of Taylor;
No. 33401­5­III, In re Guardianship of Rosser;

Appendix
30
No. 33402­3­III, In re Guardianship of Reinhardt;
No. 33403­1­III, In re Guardianship of Fry;
No. 33404­0­III, In re Guardianship of Edgar;
No. 33405­8­III, In re Guardianship of Pitner;
No. 33406­6­III, In re Guardianship of Baker;
No. 33407­4­III, In re Guardianship of Williams;
No. 33408­2­III, In re Guardianship of Wells;
No. 33409­1­III, In re Guardianship of Alden;
No. 33410­4­III, In re Guardianship of Stephens;
No. 33411­2­III, In re Guardianship of Torpey;
No. 33414­7­III, In re Guardianship of Gehring;
No. 33444­9­III, In re Guardianship of Brangwin;
No. 33445­7­III, In re Guardianship of Anderson;
No. 33446­5­III, In re Guardianship of Anderson;
No. 33447­3­III, In re Guardianship of Baldwin;
No. 33448­1­III, In re Guardianship of Baldwin;
No. 33449­0­III, In re Guardianship of Blair­Robbins;
No. 33450­3­III, In re Guardianship of Bloyed;
No. 33451­1­III, In re Guardianship of Brady;
No. 33452­0­III, In re Guardianship of Bowen;
No. 33453­8­III, In re Guardianship of Claycomb;
No. 33454­6­III, In re Guardianship of Dahl;
No. 33455­4­III, In re Guardianship of Delorenzo;
No. 33456­2­III, In re Guardianship of Demary;
No. 33457­1­III, In re Guardianship of Desjardins;
No. 33458­9­III, In re Guardianship of Eberhart;
No. 33459­7­III, In re Guardianship of Eisenman;
No. 33460­1­III, In re Guardianship of Foster;
No. 33461­9­III, In re Guardianship of Futo;
No. 33462­7­III, In re Guardianship of Garcia;
No. 33463­5­III, In re Guardianship of Haliwell;
No. 33464­3­III, In re Guardianship of Harrington;

Appendix
31
No. 33465­1­III, In re Guardianship of Hinds;
No. 33466­0­III, In re Guardianship of House;
No. 33467­8­III, In re Guardianship of Howard;
No. 33468­6­III, In re Guardianship of Jenkins;
No. 33469­4­III, In re Guardianship of Laird;
No. 33470­8­III, In re Guardianship of Lee;
No. 33471­6­III, In re Guardianship of Loss;
No. 33472­4­III, In re Guardianship of Love;
No. 33473­2­III, In re Guardianship of Mally;
No. 33474­1­III, In re Guardianship of May;
No. 33475­9­III, In re Guardianship of McKinsey;
No. 33476­7­III, In re Guardianship of McLellan;
No. 33477­5­III, In re Guardianship of McMorris;
No. 33478­3­III, In re Guardianship of Melendrez;
No. 33479­1­III, In re Guardianship of Melton;
No. 33480­5­III, In re Guardianship of Miller;
No. 33481­3­III, In re Guardianship of Milton;
No. 33482­1­III, In re Guardianship of Mitchell;
No. 33483­0­III, In re Guardianship of Morris;
No. 33484­8­III, In re Guardianship of Naylor;
No. 33485­6­III, In re Guardianship of Oppengaard;
No. 33486­4­III, In re Guardianship of Palmer;
No. 33487­2­III, In re Guardianship of Rice;
No. 33488­1­III, In re Gurdianship of Rivero;
No. 33489­9­III, In re Guardianship of Roberts;
No. 33490­2­III, In re Guardianship of Seeman;
No. 33491­1­III, In re Guardianship of Shaw;
No. 33492­9­III, In re Guardianship of Slater;
No. 33493­7­III, In re Guardianship of Smith;
No. 33494­5­III, In re Guardianship of Boyd;
No. 33495­3­III, In re Guardianship of Stephenson;
No. 33496­1­III, In re Guardianship of Sternberg;

Appendix
32
No. 33497­0­III, In re Guardianship of Stocker;
No. 33498­8­III, In re Guardianship of Storrud;
No. 33499­6­III, In re Guardianship of Tiffany;
No. 33500­3­III, In re Guardianship of Underwood;
No. 33501­1­III, In re Guardianship of White;
No. 33502­0­III, In Guardianship of Withers;
No. 33503­8­III, In re Guardianship of Baker;
No. 33504­6­III, In re Guardianship of McCoy;
No. 33505­4­III, In re Guardianship of McDirmid;
No. 33506­2­III, In re Guardianship of Trimble;
No. 33507­1­III, In re Guardianship of Zingale;
No. 33508­9­III, In re Guardianship of Leach;
No. 33601­8­III, In re Guardianship of Getchell.
SIDDOWAY, J. — After Lori Petersen, a
certified professional guardian (CPG), received a one­
year disciplinary suspension, the Spokane County
Superior Court undertook judicial review not only of
cases in which she served as guardian, but of cases
assigned to a CPG agency (CPGA) with which she
was associated. Following costly proceedings in
which replacement guardians were appointed in
every case, the court assessed costs of the procedure
against her and the corporate operator of the
agencies.
The costs were assessed without due process,
including without affording the CPGA an
opportunity to challenge facts outside the record on
which assessment decisions were based. We reverse
the money judgments only, and remand for further

Appendix
33
proceedings consistent with this opinion. We retain
jurisdiction for one reason only: the administrative
inconvenience to the courts and the parties that
would be presented should the conduct of further
hearings result in over 120 new appeals. Our
retention of jurisdiction should not be viewed as
reflecting any view of the merits or any belief that a
further appeal is expected.
BACKGROUND OF PROCEEDINGS
Lori Petersen became a CPG in 2001. See In re
Disciplinary Proceeding Against Petersen, 180 Wash.
2d 768, 773, 329 P.3d 853 (2014). In April 2012, the
Certified Professional Guardian Board served her
with a complaint charging her with violating
standards of practice. Id. at 774­75. The charges and
Ms. Petersen’s defense were presented to a hearing
officer in October 2012. Id. at 775. He entered
findings, conclusions, and a recommendation that
Ms. Petersen be suspended from serving as a CPG for
1 year and monitored for 24 months thereafter. Id. at
779. The Board adopted the hearing officer’s
recommendations but reduced the costs he had
recommended be imposed. Id.
The record and recommendation were
submitted to the Washington Supreme Court for
review. It questioned only the proportionality of the
costs imposed by the Board. Id. After a remand in

Appendix
34
which the Board made a further substantial
reduction in the costs imposed to $7,500.00, the court
affirmed and adopted the Board’s recommendation in
an order dated March 13, 2015. During the almost
three years of proceedings leading up to the March
2015 order, the Board did not impose an interim
suspension on Ms. Petersen, which it was authorized
to do if there was a substantial risk of injury to the
public. Petersen, 180 Wn.2d at 789 (citing former
DR11 519).
The Supreme Court’s order directed that Ms.
Petersen’s suspension become effective on March 20,
2015. In response to a motion to stay the suspension
filed with the Supreme Court by Ms. Petersen on
March 18, the court granted a stay to April 27, 2015,
to allow her “to work with the Certified Professional
Guardian Board to ensure proper representation of
her clients and the transition of the representation of
her clients to successor certified professional
guardians.” Clerk’s Papers (CP) at 67.

1

The Board’s disciplinary rules (DR) are contained within the
Certified Professional Guardianship Board’s Program
Regulations,
available
at
https://www.courts.wa.gov
/programs_orgs/guardian/fa=guardian.display&fileName=ru
lesindex. In the regulations presently appearing on the
website, the Board’s authority to impose an interim
suspension where a respondent’s continued practice as a
CPG poses a substantial threat of serious harm to the public
appears at DR 509.6.1.A.

Appendix
35
At the time of the Supreme Court’s order, Ms.
Petersen operated as a CPG doing business as
Empire Care Services or Empire Care and
Guardianship (Empire). The Supreme Court’s
July2014 decision characterized Empire as an agency
that Ms. Petersen “owns and operates” and described
it as “serv[ing] over 60 wards.” Petersen, 180 Wn.2d
at 773. By Ms. Petersen’s count at the time, 37 of the
wards she served were subject to guardianships
ordered and being supervised by the Spokane County
Superior Court.
At the time of the Supreme Court’s order
affirming her suspension, Ms. Petersen was also an
employee of Hallmark Care Services, Inc. and served
as a designated CPG for two CPGAs operated by
Hallmark: Castlemark Guardianship and Trust
(Castlemark), and Eagle Guardianship and
Professional Services (Eagle). If she were not
replaced, Ms. Petersen’s suspension as a CPG would
cause Hallmark to be out of compliance with a Board
regulation requiring CPGAs to have two designated
CPGs.
On March 17, 2015, a Spokane County court
commissioner wrote to Ms. Petersen at two business
locations—one, Hallmark’s; the other, Empire’s—
directing her to inform the court in writing of her
plans for her caseload, given the impending March
20 effective date of her suspension. She was asked to

Appendix
36
deliver her answer by no later than 4:00 p.m. on
March 19. An attachment to the letter listed well
over 120 pending guardianships by case name,
incapacitated person name, guardian, and standby
guardian. Empire was the assigned guardian in 32 of
the cases and Ms. Petersen was the assigned
guardian in 5. In all of the other cases, the assigned
guardian was Castlemark, Eagle, or Hallmark.
Ms. Petersen’s lawyer responded to the court
commissioner the next day, notifying her that a
motion had been made to stay the Supreme Court’s
order to allow Ms. Petersen time to transition her
clients. He pointed out that of the cases on the
commissioner’s list, only 37 were cases in which Ms.
Petersen served as guardian in her own name or in
her trade name, Empire, causing them to be directly
affected by the suspension. As for the Castlemark
and Eagle cases, he informed the commissioner that
Ms. Petersen would cease working for Hallmark
during the period of her suspension and that
Hallmark was working to identify a new designated
CPG to replace Ms. Petersen. He stated that he had
notified the Board of the change in agency status in
light of Ms. Petersen’s suspension and that Hallmark
had 60 days to find a new CPG, citing Board DR
706.3.
Ms. Petersen’s lawyer later filed a notice of
appearance for Hallmark. Given the predominance of

Appendix
37
his advocacy for Hallmark in matters relevant to this
appeal, we refer to him hereafter as Hallmark’s
lawyer, although he continues to represent Ms.
Petersen.
According to a declaration Hallmark’s lawyer
later filed with the court, corporate actions were
taken on April 1, 2015, by Hallmark's shareholder,
directors and officers to address Ms. Petersen’s
impending suspension. Reportedly, Keri Sandifer
was elected the sole director and officer of Hallmark
and two individual CPGs in good standing, James
Whiteley and Joan Shoemaker, provided written
acceptances of their appointment as Hallmark’s two
designated CPGs on that date. The lawyer’s
declaration states, “After April 1, 2015, Hallmark
Care Services, Inc. had on its board, an individual
qualified pursuant to RCW 11.88.020, and had two
designated CPGs, both in good standing with the
CPG Board, making the agency compliant pursuant
to GR 23(d)(2).” CP at 105.2
On April 7, 2015, a judge of the Spokane
County Superior Court wrote to Hallmark’s counsel
and expressed disagreement with his view that only
Ms. Petersen’s and Empire’s cases were affected by
2

The declaration also states that Ms. Sandifer was given a
proxy by the company’s sole shareholder, PJLA, Inc., but as
discussed hereafter, rules adopted by the Washington
Supreme Court do not treat ownership of the capital stock of
a CPGA as relevant to certification.

Appendix
38
Ms. Petersen’s suspension. The letter stated that the
appointment of successor guardians was at issue in
all of Hallmark’s cases as well, explaining:
Specifically, Hallmark/Castlemark/Eagle’s
ownership is in question. Despite inquiries
by the Court on multiple occasions,
ownership has always been stated as
“confidential.” The choice to leave this
inquiry unanswered puts Ms. Petersen’s
association with any of those agencies into
question. The Court will not appoint as a
successor
guardian
any
certified
professional guardian associated with
Hallmark or with entities falling under the
Hallmark umbrella. CP at 56.
PROCEEDINGS
On the same day that the superior court judge
informed Hallmark’s counsel that all of its cases
would be transitioned to a successor guardian, a
second superior court judge signed an order
appointing a special master “to oversee the transition
to and appointment of successor guardians for
incapacitated persons serviced by. .. Lori Petersen
and the agencies of which she is a designated CPG or
standby guardian.” CP at 94. The order was
uncaptioned other than to say, “In the Guardianship
of: ____ An Incapacitated Person” and bore no case

Appendix
39
number. A copy of the order was mailed to
Hallmark’s lawyer.
In a contemporaneous letter, the first superior
court judge wrote to persons serving as guardians ad
litem (GAL) in Spokane County that the suspension
of Ms. Petersen “affects 125 cases in Spokane
County,” causing it to appoint a special master “to
oversee the transition of the 125 cases currently
assigned to Ms. Petersen and/or agencies with which
she is involved.” CP at 58. It explained:
The court will assign Guardians ad Litem
to each case to investigate the appointment
of a guardian, successor guardian and/or
standby guardian. Of the 125 cases seven
are already assigned to Mr. William Dodge
to investigate specific complaints. .. .
.. . Ms. Ana Kemmerer3 will assign a group
of cases to each of you so the work can
begin. If you have a conflict in a particular
case please file a motion and the Special
Master will review it. If the Special Master
concurs, Ms. Kemmerer will arrange a
trade between two Guardians ad Litem to
eliminate the conflict and keep the
caseload balanced.
Ms. Kemmerer cannot review each case to
determine if it is county or private­pay. At
3

Ms. Kemmerer served as Guardianship Monitoring Program
Coordinator
within
the
Spokane
County
Court
Administrator’s Office.

Appendix
40
a minimum your reasonable fees will be
covered at the county pay rate. Because
generally the only issue in these cases will
be appointment of a successor guardian
and/or standby guardian, the maximum fee
will be $500.00 without further court
approval. CP at 58­59.
On April 10, 2015, dozens of orders were
entered appointing GALs and scheduling review
hearings on an expedited basis for each guardianship
in which Ms. Petersen, Empire, Castlemark, or Eagle
served as guardian. Each order was captioned with
multiple case names and numbers; generally with
four. In each order, the court directed a given GAL to
review court files and any other pertinent records
and file a GAL report and successor guardian
recommendation on the assigned cases with the
court. Each order found good cause to shorten the
period for filing the GAL reports from 15 days to 5
days before the scheduled hearing date. The order
did not direct the GAL to provide a copy of his or her
report and recommendation to Ms. Petersen,
Hallmark, or their lawyer.
Each order reiterated that the GAL was
appointed initially at public expense and that
Spokane County would not pay more than $500 in
GAL fees without further court approval. Each
contained the following additional language:

Appendix
41
Upon the hearing to appoint a successor
guardian and/or standby guardian, the
Court may assess all Guardian ad Litem
fees as costs against Certified Professional
Guardian, Lori Petersen, CPG #9713.
See CP at 178­647. The orders were e­mailed to
Hallmark’s lawyer on April 10 and were mailed to
him on the following Monday, April 13.
On April 16, Ms. Kemmerer forwarded a
follow­up letter to the GALs from the second superior
court judge. It informed the GALs that:
No certified Professional Guardian or
agency affiliated with Ms. Lori Petersen
should be appointed as Guardian or
Standby
Guardian.
That
therefore
excludes any CPG affiliated with the
Hallmark,
Castlemark,
and
Eagle
agencies, including but not limited to Joan
Shoemaker and James Whiteley, from
being appointed.
CP at 76. On April 19, Ms. Shoemaker resigned as a
designated CPG for Hallmark, reportedly because
she received a telephone call from an employee of the
Administrative Office of the Courts informing her
that if she continued as a CPG for Hallmark, she
would lose all her guardianship cases. Hallmark’s
lawyer later represented to the court that Mr.
Whiteley had received a similar call.

Appendix
42
On April 17, 2015, Hallmark’s lawyer filed a
Motion for Reconsideration of the order appointing
the special master, specifically challenging its
directive to transition guardianship cases to
guardians other than Hallmark dba Castlemark and
Eagle. Hallmark posed a number of questions about
events leading to the court’s order and challenged the
court’s jurisdiction to take actions against Hallmark
that it characterized as disciplinary, and therefore
the exclusive province of the Board.
The court heard argument of the Motion for
Reconsideration on May 15, 2015, and announced its
decision a couple of days later. In orally announcing
its decision, the court stated that in appointing the
special master it had relied on its authority under
RCW 11.88.120(1) and (4) and that the order
appointing the special master did only two things:
appointed a special master and ordered Ms. Petersen
to post a surety bond (the court granted Ms.
Petersen’s challenge to the surety bond requirement).
The court stated, “The order that I signed does not
remove Hallmark from any case nor does it order the
appointment of a guardian in any case.” Report of
Proceedings (RP) (May 18, 2015) at 4.
Later, however, the court stated:
Ms. Petersen is not now listed as a director
or officer of the agency but there are
concerns about ownership or other

Appendix
43
positions within the agency. This is
important and necessary information
because clearly the CPG Board and
Supreme Court did not want Ms. Petersen,
who has been found to have committed
professional misconduct, involved in any
guardianship actions.
[Hallmark’s lawyer] at argument noted
there had been a change in directors and
officers of the agency and said there was
quote, no possibility of outside influence in
the matter, closed quote. That’s the heart
of the issue in these cases completely.
While Ms. Petersen may no longer be
employed as a CPG with Hallmark or
serving as an officer or director, there is a
very valid concern based upon past history
and lack of full disclosure, that she
continues to be connected in some other
way and still has access to and
involvement with these vulnerable IPs.
Having not received, even to this day, some
positive affirmation from Hallmark that
Ms. Petersen is no longer involved in any
way or benefiting financially at all from
any guardianship matters, this Court is
not inclined to allow those agencies to be
considered as guardian or standby
guardian in these matters.
Id. at 8­9. A written order denying the motion for
reconsideration was later entered and identified only

Appendix
44
the respects in which the motion was granted and
denied, without making findings or stating reasons.
Meanwhile, the review hearings had begun on
May 4, 2015, and they continued through June 4,
2015, before two superior court commissioners.
Counsel for Hallmark was present for each of the
review hearings. At one of the initial hearings, he
challenged the superior court’s jurisdiction, its
authority to remove Hallmark, and the process it had
used and was using to remove Hallmark and Ms.
Petersen. Hallmark also filed a response and
objection to the order appointing the guardian ad
litem in three of the cause numbers, and it renewed
that objection by reference at most of the hearings.
At each hearing, the GAL summarized his or
her report and recommended a successor GAL. At the
first hearing on May4, Hallmark’s lawyer indicated
he had not yet received copies of any GAL reports.
The court responded that it would have the GALs
provide a copy of the reports as they went through
the process. At oral argument of this appeal,
Hallmark’s lawyer stated that he never received
copies of the GAL reports in advance of the subject
hearings, but he was sometimes provided with a copy
of the report at the hearing itself. See Wash. Ct. App.
oral argument, In re Guardianship of Holcomb, No.
33356­6­III (May 3, 2018) at 6 min., 41 sec. through 7
min., 17 sec.

Appendix
45
(available at http://www.courts.wa.gov/appellate_
trial_courts/appellateDockets
/index.cfm?fa=
appellateDockets.showDateList&courtId=a03&archi
ve=y).
Although some of the GALs did not report any
concerns about the care provided by Ms. Petersen,
Empire, Castlemark, or Eagle, a number did. Among
concerns expressed in individual cases were


mismanagement of trust funds;



charging excessive or improper guardianship
fees for clients with limited funds;



providing insufficient personal allowance to
the incapacitated person;



failure to perform visits of the incapacitated
person;



failure to file periodic care plans or status
reports;



filing falsified or improper periodic care plan
reports;



failing to list a current address for the
incapacitated person in the guardianship file;



improper care; and



complaints from caregivers concerning lack of
communications from the guardian.

Appendix
46
Some of these concerns were raised by the court and
the GALs’ review of the guardianship files, and some
were raised by the caretakers or family members of
the incapacitated person.
None of the GALs sought appointment of a
successor CPG because of a concern that Ms.
Petersen might exercise control over Castlemark or
Eagle or benefit financially from its operations
during the period of her suspension. None contended
that she had been insufficiently forthcoming about
her role at Hallmark or that Hallmark was in chaos.
The commissioners sometimes explained their
appointment decisions or responded to Hallmark’s
procedural objections by referring to these matters,
but it was not based on any evidence presented by
GALs during the review hearings.4
The amount of requested GAL fees was
discussed on the record at some of the hearings, but
there were many hearings where the amount of fees
requested was never discussed. While both court
commissioners allowed GALs to present fee requests
at the review hearings, both stated at various times
that the court was not signing on the fees at that
time. See RP (May 7, 2015) at 49­50, 82; RP Supp.
4

A declaration of Ms. Kemmerer containing some of this
information had been filed in opposition to Hallmark’s and
Ms. Peterson’s motion for reconsideration of the order
appointing a special master but it was not a part of the
evidence presented in the review hearings.

Appendix
47
(May 4, 2015) at 13­14, (May 14, 2015) at 250.
Instead, the commissioners repeatedly stated during
review hearings that they were reserving the issue of
reimbursement to Spokane County for the approved
GAL fees pending further court review. Each order
appointing a successor guardian also stated that the
court was reserving the issue of reimbursement
pending further court review.5
A week following the conclusion of the review
hearings, and without further notice or proceedings,
the commissioners began entering judgments
assessing GAL fees against Hallmark or Lori
Petersen/Empire in all of the cases in which the
incapacitated person lacked assets to pay. Each
judgment indicated that the court found that the
GAL fees incurred were reasonable and that “[t]he
GAL investigation was necessitated by the
suspension of Lori Petersen as a CPG in this matter
and her association with related agencies.” CP at
3175­4364. On the second page of each judgment
entered against Hallmark, the court further found
that:
[A]lthough the agency in this case is not
one in which Lori Peterson is the
designated CPG, it has failed to disclose
5

In some cases this language was included in a separate
addendum order entered at the same time as the order
appointing guardian, rather than in the order appointing
guardian.

Appendix
48
the interest that Ms. Peterson has in the
agency and the degree of control that she
has over the agency despite the requests of
the court. Ms. Peterson has also served as
the designated CPG for this agency and
her activities were not overseen by the
agency appropriately and as a result she
was suspended. Furthermore, the agency
has been in chaos with rapidly changing
CPG designations. There have been
numerous complaints from IPs, caregivers
and others about lack of contact, lack of
response to concerns raised about care and
in some cases complaints about financial
improprieties. The court has seen many
instances of inaccurate and outdated
information provided to it in annual
reports. These acts and/or omissions have
resulted in breaches of the fiduciary duty
that the guardian owes to its IPs. Effective
May 18, 2015, the agency, because of the
recent resignation of one of the designated
CPGs will not have the requisite two CPGs
to conduct business and effective June 30,
2015, the resignation of the other CPG will
mean that it will have no CPGs to conduct
business and thus it does not appear that
the agency can provide the assurance of
viability beyond that date. For all these
reasons, and based upon additional
findings of the court as articulated on the
record in these related proceedings and
incorporated by reference herein, the CPG

Appendix
49
agency is presently unsuitable to be
appointed as a successor guardian and
that has necessitated the need of the court
to appoint a GAL to investigate and
recommend a successor guardian to insure
continuity of care for the incapacitated
persons under its jurisdiction.
Id. at 4140. Upon entry, copies of the money
judgments were served on Hallmark’s attorney.
Hallmark and Ms. Petersen appeal.

ANALYSIS
Issues on appeal and motion to strike
Hallmark and Ms. Petersen initially appealed
three orders in each of more than 120 guardianship
cases: the order appointing the special master; the
order removing appellants as guardians and
appointing a successor guardian; and the judgment
assessing GAL fees against one of them. We
consolidated the cases for appeal. The Spokane
County Guardianship Monitoring Program (GM
Program), a program within the county’s superior
court administrator’s office, sought and was granted
special amicus status to respond to Hallmark’s
pleadings on appeal.

Appendix
50
In response to this court’s motion to determine
appealability, the parties briefed and our court
commissioner heard argument on whether Ms.
Petersen and Hallmark had standing to appeal their
removal as guardians. Finding that Ms. Petersen and
Hallmark were not aggrieved parties with respect to
the orders appointing a special master and removing
them as guardians, our commissioner dismissed the
appeal of those categories of orders, leaving the
judgments assessing GAL fees as the sole subject
matter of this appeal. Commissioner’s Ruling, In re
Guardianship of Holcomb, No. 33356­6­III (Wash. Ct.
App. Aug. 26, 2015) at 22­23. Hallmark and Ms.
Petersen did not move to modify the commissioner’s
ruling.
As a threshold matter, the GM Program asks
us to strike portions of Hallmark’s and Ms.
Petersen’s opening brief,6 which it contends violates
our commissioner’s prior orders as well as provisions
of the Rules on Appeal. The opening brief does
include material that our commissioner deemed
relevant only to dismissed matters, but with the
benefit of hindsight, background on Hallmark’s and
Ms. Petersen’s objections to the procedure followed in
the superior court proves to be relevant. Hallmark
6

Hallmark’s and Ms. Petersen’s operative opening brief is
their second. They were ordered by our court commissioner
to remove portions of their first opening brief related to
matters that were dismissed.

Appendix
51
and Ms. Petersen evidently foresaw that the superior
court’s authority to assess GAL fees against them
would be defended on the basis that all actions taken
in response to Ms. Petersen’s suspension were an
“emergent necessity,” as the GM Program argues on
appeal. Br. of Amicus Curiae at 12. Hallmark’s and
Ms. Petersen’s objections to the procedure in the trial
court calls into question that defense of the process.
The GM Program’s argument that Hallmark
and Ms. Petersen violated the Rules of Appellate
Procedure by failing to cite to all relevant portions of
the record supporting their assertions of fact is also
true. But the same can be said for some statements
of fact in the GM Program’s brief. We recognize that
an appeal that involves separate submissions and
proceedings in over 120 cases makes complete
compliance with RAP 10.3(a)(5) and 10.4(f) onerous
and perhaps prohibitively expensive. Both parties
did a sufficient job of providing record citations for
important and contested matters. Neither parties’
briefing has hampered the work of the court.
We turn to the dispositive issue that remains
before us following our commissioner’s unappealed
order as to the scope of the appeal: Whether the
superior court violated CR 54(f)(2) and Hallmark’s
and Ms. Petersen’s due process rights when it filed
judgments requiring Ms. Petersen and Hallmark to

Appendix
52
reimburse Spokane County for the GAL fees incurred
in each of the cases.

Violation of CR 54(f)(2) and denial of due process
Hallmark and Ms. Petersen argue that the
money judgments entered against them violated CR
54(f)(2), which requires five days’ notice of
presentation of a judgment. They also allege a
violation of due process, where the court
commissioners consistently represented that the
issue of assessment of the fees against Ms. Petersen
was being reserved, and Hallmark never received
notice that assessment of fees against it was even
being considered. At oral argument of the appeal, the
GM Program characterized repeated statements by
the commissioners that the cost assessment issue
was being reserved as equivalent to the court taking
a disputed matter under advisement. We disagree.
The implication of the commissioners’ statements
was that an assessment of fees against Ms. Petersen,
if it were to be considered at all, would be the subject
matter of a future hearing. She and Hallmark
understandably did not address the issue of fee
assessment at the review hearings.
Under RAP 2.5(a), a party may raise a claim of
“manifest error affecting a constitutional right” for
the first time on appeal. “It is consistent with RAP

Appendix
53
2.5(a) for a party to raise the issue of denial of
procedural due process in a civil case at the appellate
level for the first time.” Conner v. Universal Utils.,
105 Wn.2d 168, 171, 712 P.2d 849 (1986) (citing
Esmieu v. Schrag, 88 Wn.2d 490, 497, 563 P.2d 203
(1977)). The due process challenge is properly before
us.
A party is also able to challenge a judgment
entered in violation of CR 54(f)(2) for the first time
on appeal. Failure to comply with the notice
requirements of CR 54(f)(2) generally renders the
trial court’s entry of judgment void; while the
judgment will not be found invalid if the complaining
party is not prejudiced, a party is prejudiced if it is
not allowed to appeal. See Burton v. Ascol, 105
Wn.2d 344, 352, 715 P.2d 110 (1986) (no prejudice
shown when party was allowed to appeal).
The GM Program argues that the superior
court was not required to comply with CR 54(f)(2)
because guardianships are special proceedings for
purposes of CR 81(a). Assuming (though not
deciding) that this is so, CR 81(a) provides that
statutes applicable to special proceedings supersede
the civil rules only where they provide for
inconsistent
procedure.
Statutes
governing
guardianship proceedings do not dictate a procedure
for entering a money judgment imposing fees that is

Appendix
54
inconsistent with the procedure required by CR 54(f)
(2).
Because entry of the money judgments
violated both CR 54(f)(2) and Ms. Petersen’s and
Hallmark’s right to due process, they are reversed.
Procedure on remand
Because our commissioner has dismissed Ms.
Petersen’s and Hallmark’s challenges to the orders
removing her and Hallmark’s agencies as guardians,
we write further to make clear that in any future
proceedings, they are free to challenge the
assessment of GAL fees (but not the orders removing
them as guardians) on the basis that the replacement
process followed by the court was not necessary.
It appears to be the case that in taking action
in proceedings below some, and perhaps all, of the
judicial officers involved were privy to information
obtained ex parte from persons associated with the
GM Program. As explained in Sherman v. State, 128
Wn.2d 164, 204­05, 905 P.2d 355 (1995), reliance on
ex parte information, however well intentioned, is
improper:
Canon 3 of the CJC, which requires judges
to perform the duties of their offices
impartially and diligently, provides in
relevant
part:
Judges should accord to every person who

Appendix
55
is legally interested in a proceeding, or
that person’s lawyer, full right to be heard
according to law, and, except as authorized
by law, neither initiate nor consider ex
parte or other communications concerning
a pending or impending proceeding.. ..
CJC Canon 3(A)(4) (1994) (emphasis
added). As the comment to Canon 3
explains, this prohibition against ex parte
communications
includes
contacting
neutral third parties about a pending case:
The proscription against communications
concerning
a
proceeding
includes
communications
from
lawyers,
law
teachers, and other persons who are not
participants in the proceeding, except to
the limited extent permitted…CJC Canon
3(A)(4) cmt. (1994) (emphasis added). Id.
It appears that some of the information
obtained ex parte led to the conclusion by the judicial
officers that no CPG or CPGA affiliated with Ms.
Petersen or Hallmark could be appointed to serve as
guardian. The Supreme Court’s order and its rules do
not support that conclusion.
RCW 11.88.120(1) addresses a court’s
authority to make changes to a guardianship after it
is established, and includes the court’s authority to
replace a guardian, on the court’s own motion, “upon
the death of the guardian… or for other good reason.”

Appendix
56
Washington cases hold that under a similarly­worded
former law, “the court always has power, under
proper circumstances, to remove a guardian, but it
may not act arbitrarily.” In re Guardianship of
Hemrich, 187 Wash. 21, 26, 59 P.2d 748 (1936)
(applying Rem. Rev. Stat. § 1579 (1932), which
empowered courts to remove guardians “for good and
sufficient reasons”) (citing In re Estate of Shapiro,
131

Wash.

653,

230

P.

627

(1924);

In

re

Guardianship of Dodson, 135 Wash. 625, 238 P. 610
(1925)).
Under RCW 11.88.090(10), the fees of a GAL
“shall be charged to the incapacitated person unless
the court finds that such payment would result in
substantial hardship upon such person, in which case
the county shall be responsible for such costs.” This
charging language is subject to the proviso that “the
court may charge such fee to the petitioner, the
alleged incapacitated person, or any person who has
appeared in the action; or may allocate the fee, as it
deems just.” Id.
Guardianships are equitable creations of the
courts and it is the Washington Supreme Court that
holds the authority to regulate the certification of
professional guardians. Petersen, 180 Wn.2d at 781­
82. It has done so in GR 23, establishing the
framework and delegating some regulatory and

Appendix
57
rulemaking tasks to the Board. Id. at 782. Relevant
here, the Supreme Court has established the
requirements that individuals and agencies must
meet to apply to serve as CPGs or CPGAs. GR 23(d).
Although the Board processes applications for
certification and makes recommendations to the
Supreme Court, it is ultimately the court that orders
certification. GR 23(c)(2)(i), (v).
The Supreme Court’s requirements for an
agency wishing to be certified as a CPGA include a
requirement that its officers and directors all meet
the qualifications of RCW 11.88.020 for guardians,
that it have two designated CPGs, and that it
provide proof of its financial responsibility. GR 23(d)
(2), (5). No requirement limits who can own the
capital stock of a CPGA and the rule does not
identify any ramification to an agency if one of its
CPGs is suspended, other than the requirement that
it have two CPGs in place. Board DR 706.3 provides
that “[i]f a change in circumstances results in an
agency having only one designated guardian, the
agency shall notify the Board within five (5) calendar
days of the change in circumstances” and “shall have
sixty (60) calendar days from the date the agency is
no longer in compliance with GR 23 to add a
designated guardian to the agency.”
The fact that the Supreme Court has not
required that the capital stock of a CPGA be owned

Appendix
58
by only CPGs in good standing makes sense. CPGs
may have a significant capital investment in a CPGA
through which they operate, and may have coworkers
who depend on the business’s continued operation for
their livelihood. Even if a CPG facing suspension
does not have a large sunk investment in a CPGA’s
assets, she may be individually responsible, as a
guarantor or otherwise, for ongoing real estate,
equipment, and loan obligations. Obviously, she must
scrupulously abide by an order suspending her, and
the suspension alone will likely have significant
financial ramifications. But nothing in GR 23
suggests that in addition to suffering the suspension,
a CPG should lose her entire investment in a CPGA
or that the CPG’s coworkers should all be thrown out
of work.
The Supreme Court’s order in Ms. Petersen’s
case provides only that “Lori A. Petersen is
suspended for a period of one year,” that “[f]ollowing
the end of the one year suspension, she shall be
monitored for a 24 month period,” that “[t]he
monitoring shall be at Lori A. Petersen’s expense,”
and that “Lori A. Petersen shall pay costs to the
Board in the amount of $7,500.00.” CP at 1881. It
does not state or imply that anyone affiliated with
Ms. Petersen must suffer suspension with her.
Evidence presented in future proceedings may
or may not support the guardian replacement

Appendix
59
procedure followed by the court and an assessment of
fees against Hallmark or Ms. Petersen. We do not
prejudge that issue, but want to be clear that our
commissioner’s
decision
that
the
guardian
replacement decisions were not before us on appeal
does not foreclose Hallmark’s challenge to fee
assessments based on what it claims was an
unnecessary guardian removal procedure.
We reverse the money judgments only, and
remand for further proceedings consistent with this
opinion. We retain jurisdiction to avoid the
administrative inconvenience to the courts and the
parties that would be presented should the conduct
of further hearings result in over 120 new appeals.
A majority of the panel has determined this
opinion will not be printed in the Washington
Appellate Reports, but it will be filed for public
record pursuant to RCW 2.06.040.
Siddoway, J.
WE CONCUR:
Lawrence­Berrey, C.J., Fearing, J.

Appendix
60
Oral Ruling by Trial Court on Motion for
Reconsideration of Order Appointing Special
Master
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND FOR THE COUNTY OF
SPOKANE
Cause No. 4­09717­1
In the Guardianship of MARIA DELORENZO,
et al.
COPY
VERBATIM REPORT OF PROCEEDINGS
HONORABLE ELLEN KALAMA CLARK
MAY 18, 2015; 3:31 P.M.

APPEARANCES:
FOR THE PETITIONER(S): STEVEN J. KINN
Spokane County Prosecutor's Office 1116 W.
Broadway Avenue Spokane, Washington 99260
FOR THE RESPONDENT(S): JOHN PIERCE Law
Office of John Pierce, PS 505 W. Riverside Avenue
Suite 518 Spokane, Washington 99201
Tammey L. McMaster, CCR No. 2751
Official Court Reporter
1116 W. Broadway Avenue
Spokane, Washington 99260

Appendix
61
(MAY 18, 2015.)
(AFTERNOON SESSION.)
THE COURT: Folks, first of all, thank you for
coming back this afternoon. It did give me enough
time to look over things I have to think about and
was able to write out some remarks so I think we're
ready to proceed this afternoon.
Now, as Mr. Pierce mentioned in his argument
last week the Court's primary responsibility in these
guardianship cases, the Court's duty is to protect the
incapacitated person. If there are any questions
about the abilities of a guardian or a standby
guardian, the Court not only can but must act to be
sure those questions are answered and must act
swiftly and proactively to be sure no harm comes to
the IPs or to their estates. This authority comes from
RCW 11.88.120(1), states: "The Court may for other
good reason, replace the guardian or limited
guardian." And says in subparagraph four, "The
Court may grant such relief as it deems just and in
the best interest of the incapacitated person." So
there's where we start.
Now, before me is a motion for reconsideration
of an order signed by me on April 7th of 2015. Let's
be very clear about what this order does because it
does only two things; it appoints retired Judge Paul
Bastine as special master and orders a $100,000

Appendix
62
surety bond to be paid by Lori Petersen and/or
Hallmark, Castlemark, Eagle. I will note for the
record when I refer to Hallmark in this decision, I am
including Castlemark and Eagle as a group. The
order that I signed does not remove Hallmark from
any case nor does it order the appointment of any
guardian in any case.
I have reviewed the materials submitted by
Mr. Pierce and Mr. Kinn. There are some legal issues
appropriately raised regarding what this Court
actually ordered.
Mr. Pierce asks for clarification on a number of
other matters, at least some of which seem to be
more of a discovery request regarding how this order
came about rather than reconsideration of what was
actually ordered. I am not here as a fact witness and
I am uncomfortable with being put in that position. I
will answer what I can: The order was presented to
me ex parte without a court reporter present so there
is no transcript. It was presented to me because it
was not an order that would have been brought to
the court commissioner, even though they handle
most of our guardianship hearings, and because
Judge O'Connor was out on medical leave. I am part
of the court's Guardianship Registry Committee and
the Guardianship Monitoring Program Committee,
and was aware of the need for action to be taken
upon Ms. Petersen's suspension.

Appendix
63
To answer some Mr. Pierce's other questions,
any further legal issues regarding this order should
be brought to me. Any issues regarding individual
guardianship cases should by set on the
guardianship docket with the court commissioners. If
there are other issues that arise regarding all of
these matters globally, I would be available to hear
those. Mr. Pierce also asked if the need arises to
serve additional documents who should those be
served on as far as Court goes. With regards to any
matters that I hear I think at this time it's best for
those to be served upon Mr. Kinn.
MR. KINN: I'm sorry. On whom, Your Honor?
THE COURT: On you.
MR. KINN: All right. Thank you.
THE COURT: Now, there was also a request
in the original memorandum for consolidation under
CR 42. That wasn't really addressed in argument.
For what it's worth, that is granted as far as this
motion goes. Once this motion is resolved and the
appropriate orders are entered, I don't believe there's
any further need for consolidation since the cases are
appropriately being heard individually with regard to
appointment of guardians or standby guardian. Now,
as far as the orders to entered regarding this motion,
Counsel, here's what I'm going to suggest and allow
this and I hope you all agree with it. I will allow the

Appendix
64
order from this decision to be filed in one file,
specifically Cause No. 4­09727­1, guardianship of
Maria Delorenzo. That is the first case on the list the
clerk has, the one I referred to at the time of the
motion as Exhibit 1. Now, what I'm envisioning is
that a statement could be filed in each of the other
files simply indicating that the order filed on such
and such a date in the Delorenzo case also applies in
subject file. I think that's how the clerk's office is
handling some of matters they have. If anybody has a
better idea I would love to hear it.
So getting back to the issue with regard to
appointment of a special master. This Court was
required to take action quickly in 124 cases,
including the appointment of a GAL in each case and
setting hearing dates, clearly a huge administrative
task. In some those cases there was a need for simple
ministerial duties such as moving a hearing date if
someone was unavailable or reassigning a GAL if
there was a conflict of interest. There was also the
need for some investigation into the appropriateness
of the successor guardians, with recommendations to
be made to the Court. Appointment of special master
is appropriate in those cases.
As to the due process issues, again, this order
merely appoints a special master to oversee the
process of review. No dispositive issues were
determined. Hallmark was given notice of the order

Appendix
65
and an opportunity to be heard, which they have
exercised by the filing of this motion. Now, Mr. Kinn
referred order as the first step and Mr. Pierce asked
what then is the next step. That answer is pretty
simple, the next step is consideration of each case
individually based upon the recommendations of the
GALs and the special master.
Now, with regard to what Hallmark has
termed an appearance of fairness question, these are
issues due to Ms. Petersen's suspension and prior
lack of information from Hallmark, had to be raised
and addressed. Ms. Petersen wasn't going to ask
those questions and the IPs probably wouldn't know
if they should ask those questions. Who else would or
could? The Court could not statutorily or ethically
simply stand by and let the matters proceed.
Now, I also want to point out as to Mr. Kinn's
objection regarding the timeliness of the hearing of
the motion, I think the record needs to be clear. I
received the motion on April 17th. I was out of the
office for about a week after that and my calendar on
Fridays is pretty full.
On May 4, my JA set a
hearing for May 15. The delay was due to my absence
and needing to find time in my schedule. It was not
the fault of Mr. Pierce or his clients at all.
Now, the order does appoint Judge Bastine as
special master for all cases involving Lori Petersen

Appendix
66
as CPG or standby guardian, Castlemark
Guardianship and Trusts, Hallmark Care Services
and Eagle Guardianship. Mr. Pierce correctly notes
that the Supreme Court suspension order of the
March 19, 2015, suspends only Ms. Petersen.
Hallmark is objecting to the Court reviewing the
need to take any action involving the cases in which
Hallmark or its affiliates are guardian or standby
guardians, and for refusing to allow Ms. Petersen to
transfer cases to Hallmark.
The record I was given clearly shows Ms.
Petersen served in many capacities at Hallmark.
Attachment 2 to Ms. Kemmerer's declaration is a
declaration from Terri Stein, then a part of
Hallmark. The declaration is dated November 4,
2014, filed in Cause No. 4­10617­4. It discuss Ms.
Petersen's role as a consultant to assist in the
transfer of the business to new management, as a
bookkeeper, as an office manager, a "decision­maker"
and as a CPG. Now, correspondence from Judge
O'Connor and Commissioner Anderson indicate that
Superior Court has had questions about Ms.
Petersen's role or involvement and association with
Hallmark. Apparently, according to the letters
submitted between Judge Lawler and Mr. Pierce, the
CPG Board also has similar questions. Those have
not been answered.

Appendix
67
Ms. Petersen is not now listed as a director or
officer of the agency but there are concerns about
ownership or other positions within the agency. This
is important and necessary information because
clearly the CPG Board and Supreme Court did not
want Ms. Petersen, who has been found to have
committed professional misconduct, involved in any
guardianship actions.
Mr. Pierce at argument noted there had been a
change in directors and officers of the agency and
said there was quote, no possibility of outside
influence in the matter, closed quote. That's the
heart of the issue in these cases completely. While
Ms. Petersen may no longer be employed as a CPG
with Hallmark or serving as an officer or director,
there is a very valid concern based upon past history
and lack of full disclosure, that she continues to be
connected in some other way and still has access to
and involvement with these vulnerable IPs. Having
not received, even to this day, some positive
affirmation from Hallmark that Ms. Petersen is no
longer involved in any way or benefiting financially
at all from any guardianship matters, this Court is
not inclined to allow those agencies to be considered
as guardian or standby guardian in these matters.
Now, there have been on file here additional
complaints noted concerning Ms. Petersen and
Hallmark but this Court's action is not the case of

Appendix
68
disciplining Hallmark at all. The ultimate decision to
appoint a certain person or agency as guardian is
within the discretion of the Court. This Court is
choosing, at this time, under these facts and
circumstances, in this county to review whether
Hallmark should remain as a guardian in the cases
before it. The portion of the order appointing the
special master will not be changed.
Now, with regard to the $100,000 bond, I think
counsel is correct. There is no legal authority for that
at this time. So that part of the order will be omitted.
The issue of errors and omissions insurance was not
part of my order so it's not part of this motion, but I
do appreciate Mr. Pierce offering to obtain that
information for Mr. Kinn.
Counsel, I'd like you to prepare an order
consistent with this decision. I would take a general
order that simply denies reconsideration of the
appointment of the special master but does grant the
request to eliminate need for posting a bond and
otherwise refers to this oral decision. If you prefer a
more formal order, please prepare that as soon as
possible and send it to me for signature and filing.
I've told our court reporter you'd probably be asking
for a transcript so she is aware if you need that needs
to be done.

Appendix
69
Counsel, that's where we are. Mr. Pierce, is
this your motion do you have any questions about
anything we've said?
MR. PIERCE: No, Your Honor. Thank you
very much for your consideration.
THE COURT: You're very welcome.
Mr. Kinn, any questions?
MR. KINN: No questions, Judge, thanks.
THE COURT: All right. Then you all know
how to contact Tammey if you need to, otherwise I
will look forward to the order.
Thank you all very much.
MR. PIERCE: Thank you, Your Honor.
(Proceedings Concluded.)

Appendix
70
CERTIFICATE
I, TAMMEY L. MCMASTER, do hereby certify: That
I am an Official Court Reporter for Spokane County
Superior Court, sitting in Department No. 12, at
Spokane,
Washington;
That
the
foregoing
proceedings were taken on the date and time as
shown on the cover page hereto; That the foregoing
proceedings are a full, true and accurate
transcription of the requested proceedings, duly
transcribed by me or under my direction.
I do further certify that I am not a relative of,
employee of, or counsel for any of said parties, or
otherwise interested in the event of said proceedings.
DATED
this
22nd
Tammey
McMaster,
Official Court Reporter

day
of
CCR

July,
No.

2015.
2751

Appendix
71
Ex Parte Order Appointing Special Master,
Spokane County Superior Court
Superior Court of Washington, County of Spokane
IN RE THE GUARDIANSHIP OF
See Attached List
Incapacitated Persons
CASE NO. See Attached List
GENERAL ORDER APPOINTING SPECIAL
MASTER
(CLERK'S ACTION REQUIRED)
(filed April 07, 2015)
[Attached list of 126 cases redacted]
I. BASIS
Due to the one­year suspension of Certified
Professional Guardian, Lori Petersen, CPG #9713, by
the Washington State Supreme Court under cause
91244­1, effective March 20,2015, it is necessary that
the court appoint a special master to oversee the
transition to and appointment of successor guardians
for incapacitated persons serviced by the said Lori
Petersen and the agencies of which she is a
designated CPG or standby guardian.

Appendix
72
II. ORDER
Paul Bastine is found or known by the Court
to be a suitable disinterested person with the
requisite knowledge, training or expertise, who is
hereby appointed as Special Master for all cases
involving Lori Petersen, as CPG or standby
guardian, Castlemark Guardianship & Trusts,
Hallmark Care Services and Eagle Guardianship.
The address and phone of the Special Master are:
806 S. Raymond Rd. Spokane Valley, WA 99206;
(509) 844­2954.
The Court orders at the conclusion of the Special
Master's duties fees will be allocated at the direction
of the court. In the meantime, Empire Care &
Guardianship,
Lori
Petersen
and/or
the
Castlemark/Eagle/Hallmark Agencies are to place
$100,000 into the registry of the court or provide a
$100,000 surety bond approved by the court to secure
payment of such fees.
The Special Master shall have the following
duties:
(a) The Special Master shall oversee the
appointment,
administration
and
management of all Guardians Ad Litems
appointed to investigate appropriate
successor guardians to Lori Petersen and
the agencies of which she designated as
CPG.

Appendix
73
(b) The Special Master shall investigate
the
potential
successor
certified
professional guardians and their ability to
absorb new clients.
(c) The Special Master shall report back to
the Court with recommendations as to the
appropriateness of the successor certified
professional guardians based on the
totality of circumstances.
DATED AND SIGNED IN OPEN COURT THIS 7th
OF April, 2015.
Ellen Kalama Clark
Judge

Appendix
74
Ex Parte Letter from J. O'Connor, Spokane
County Superior Court.
Superior Court of the State of Washington
for the County of Spokane
Department No.4
Kathleen M. O'Connor
Judge
April 7, 2015
Dear Certified Professional Guardians,
The Court rarely has the opportunity to
express gratitude for your tireless work for the
County's most vulnerable population. The Court is
aware of the long hours and in some cases non­
payment for your time. The Court simply couldn't do
it without you. Due to the demanding nature of many
of these extraordinary cases locating a guardian is
extremely difficult.
In the upcoming weeks, Guardians ad Litem
will be contacting you to take on several cases due to
the recent suspension of CPG Lori Petersen, effective
April 28, 2015. The Court asks you to continue to go
above and beyond and accept these appointments.
Yours truly,
Kathleen M. O'Connor
Superior Court Judge

Appendix
75
Ex Parte Letter from J. O'Connor, Spokane
County Superior Court.

Superior Court of the State of Washington
for the County of Spokane
Department No.4
Kathleen M. O'Connor
Judge
April 7, 2015
Dear Guardians ad Litem:
As you know, the Washington State Supreme
Court suspended CPG Lori Petersen effective April
28, 2015. This action affects 125 cases in Spokane
County.
The court recognizes the good work you do in
the guardianship process and the difficulty in
locating guardians or successor guardians in some
cases. The Spokane County hourly rate you receive to
do the work necessary to help protect this vulnerable
population is low. The court also recognizes the role
of the CPG with respect to our vulnerable citizens
and have reached out to them in a separate email
which is attached.
This pending suspension requires immediate
action from all those involved in our guardianship
community. The court will appoint a Special Master

Appendix
76
to oversee the transition of the 125 cases currently
assigned to Ms. Petersen and/or agencies with which
she is involved.
The court will assign Guardians ad Litem to
each case to investigate the appointment of a
guardian, successor guardian and/or standby
guardian. Of the 125 cases seven are already
assigned to Mr. William Dodge to investigate specific
complaints and those cases need for guardian(s).
Currently, there are 34 persons on our Guardianship
Registry. Excluding Mr. Dodge and Mr. James
Woodard who is Ms. Petersen's prior attorney, there
are 32 Guardians Ad Litem for 118 cases or 3­4 cases
per person.
The court knows all of you are busy and may
also have pending cases. However, time is of the
essence. The court believes the vast majority of you
would step up to help our vulnerable citizens and Ms.
Ana Kemmerer will assign a group of cases to each of
you so the work can begin. If you have a conflict in a
particular case please file a motion and the Special
Master will review it. If the Special Master concurs,
Ms. Kemmerer will arrange a trade between two
Guardians ad Litem to eliminate the conflict and
keep the caseload balanced.
Ms. Kemmerer cannot review each case to
determine if it is county or private pay. At a

Appendix
77
minimum your reasonable fees will be covered at the
county pay rate. Because generally the only issue in
these cases will be appointment of a successor
guardian and/or standby guardian, the maximum fee
will be $500.00 without further court approval. In
addition, for all of those who actively participate in
this project the court will waive your fee for the 2015
Mandatory Guardian ad Litem Training.
Yours truly,
Kathleen M. O'Connor
Superior Court Judge

Appendix
78
Ex Parte Letter from J. O'Connor, Spokane
County Superior Court.

Superior Court of the State of Washington
for the County of Spokane
Department No.4
Kathleen M. O'Connor
Judge
April 7, 2015
Mr. John Pierce
[address redacted]
Re: Lori Petersen Suspension
Dear Mr. Pierce:
We have received your letter regarding
succession planning for Ms. Petersen's guardianship
cases. We disagree that only the Empire cases and
those specifically naming Ms. Petersen individually
are impacted by her suspension. The appointment of
successor guardians is at issue in all of her cases.
Specifically,
Hallmark/Castlemark/Eagle's
ownership is in question. Despite inquiries by the
Court on multiple occasions, ownership has always
been stated as "confidential." The choice to leave this
inquiry unanswered puts Ms. Petersen's association
with any of those agencies into question. The Court

Appendix
79
will not appoint as a successor guardian any certified
professional guardian associated with Hallmark or
with entities falling under the Hallmark umbrella.
A special master shall be appointed to oversee
the transition process and individual guardians ad
litem will determine successor guardians for these
incapacitated persons. The Court will require
$100,000 surety bond to secure payment of fees.
Until such time as a new guardian is appointed,
standby guardians are authorized to make
emergency decisions for all incapacitated persons
impacted by the Supreme Court's ruling.
Yours truly,
Kathleen M. O'Connor
Superior Court Judge

Appendix
80
Supreme Court of the State of Washington
Grant, in part, Stay of Suspension
The Supreme Court State of Washington
March 26, 2015
SENT BY E­MAIL ONLY
[Recipients Redacted]
Re: Counsel:
On March 18, 2015. this Court received the
"MOTION
FOR
IMMEDIATE
STAY
OF
SUSPENSION" (motion) filed by counsel. Deborah J.
Jameson, on behalf of the Respondent, Lori A.
Petersen. After conferring with the Chief Justice,
Barbara Madsen, it has been determined that I
should enter the following ruling regarding the
motion:
"The "MOTION FOR IMMEDIATE STAY
OF SUSPENSION" is granted only in part.
The suspension imposed by this Court's
ORDER dated March 13, 2015, is
temporarily
stayed
to
allow
the
Respondent, Lori A. Petersen, to work with
the Certified Professional Guardian Board
to ensure proper representation of her
clients and the transition of the
representation of her clients to successor

Appendix
81
certified professional guardians. This
Ruling
shall
only
authorize
the
representation of those clients that she
represented at the time the suspension
went into effect on March 20,2015. The
stay of the suspension will last only
through April 27, 2015, with the
suspension again becoming effective on
April 28, 2015, and remaining in effect
through March 20, 2016."
Sincerely,
Ronald R. Carpenter,
Court Clerk

Appendix
82
Ex Parte Letter from Comm’r Anderson,
Spokane County Superior Court
Superior Court of the State of Washington
for the County of Spokane
Rachelle E. Anderson
Superior Court Commissioner
March 17, 2015
Lori Petersen
Hallmark Care Services
Guardianship
[address redacted]

Lori Petersen
Empire Care
[address redacted]

Dear Ms. Petersen:
We are in receipt of the Order from the
Supreme Court of Washington dated March 13, 2015
indicating that effective this Friday, March 20, 2015,
you are suspended for a period of one year from
practicing in the field of guardianships. Currently
you have a significant caseload of clients, and you
must inform the Court, by way of a written response
to this letter, what your planning for your cases
effective March 20, 2015. This letter with a specific
plan as to each individual you represent must be
received by me no later than 4:00 pm on Thursday
March 19, 2015.

Appendix
83
You have appeared in court many times
during the pendency of this proceeding with the
Certified Professional Guardian Board and the
appeal to the Supreme Court, and each time you had
indicated to this court that you were doing
concurrent planning with regard to your cases in
case your appeal was unsuccessful. I trust that
although time is short, you have a plan in place. It is
imperative to the well­being of all those individuals
involved that you respond with a specific plan
immediately.
Sincerely,
Rachelle E. Anderson,
Spokane County Superior Court Commissioner

Appendix
84
Supreme Court of the State of Washington
Ruling of Suspension of Guardian
The Supreme Court of Washington
Supreme Court No. 91244­1
In Re: Lori A. Petersen, CPG No. 9713.
ORDER
This Court, by opinion dated July 3, 2014, in
DISCIPLINE OF PETERSEN, 180 Wn.2d 768,
remanded this matter back to the Certified
Professional Guardian Board so it could determine
whether the sanction it asked the Court to impose
against Lori A. Petersen promotes consistency. After
the matter was remanded, the Board additionally
considered the matter at its regularly­scheduled
meeting on January 12,2015, and adopted
"FINDINGS OF FACT, CONCLUSIONS OF LAW,
AND
RECOMMENDATIONS
Disciplinary
Regulation 513" (Findings).
On February 4, 2015, the Certified
Professional Guardian Board's (Board) filed with this
Court
a
"PETITION
FOR
ORDER
OF
SUSPENSION" (Petition), dated January 28, 2015,
in the matter of Lori A. Petersen. Pursuant to the
Disciplinary Regulation 512.4.4, the Board petitioned
the Court: (1) to affirm the Board's sanction against

Appendix
85
Lori A. Petersen of a one year suspension as
proportional;
(2)
to
affirm
the
Board's
recommendations for the remedy of monitoring for 24
months following the end of the suspension at Lori A.
Petersen's expense; and (3) to affirm the Board's
recommendation that Lori A. Petersen pay costs to
the Board in the amount of $7,500.00. The Court
reviewed both the Petition and the Findings, and
after further consideration of the matter, the Court
determined unanimously that the following order
should be entered. Now, therefore, it is hereby
ORDERED:
That the Board's recommendations to the
Supreme Court are affirmed and adopted. Therefore,
Lori A. Petersen is suspended for a period of one
year. The effective date of suspension is 7 days from
the date of this order. Following the end of the one
year suspension, she shall be monitored for a 24
month period. The monitoring shall be at Lori A.
Petersen's expense. Lori A. Petersen shall pay costs
to the Board in the amount of $7,500.00.
DATED at Olympia, Washington, this 13th day of
March, 2015.
For the Court
s/ Madsen, C.J./
CHIEF JUSTICE

Appendix
86
RCW 11.88.120 Modification or termination of
guardianship—Procedure.
(1)(a) At any time after establishment of a
guardianship or appointment of a guardian, the court
may, upon the death of the guardian or limited
guardian, or, for other good reason, modify or
terminate the guardianship or replace the guardian
or limited guardian or modify the authority of a
guardian or limited guardian. Such action may be
taken based on the court's own motion, based on a
motion by an attorney for a person or entity, based
on a motion of a person or entity representing
themselves, or based on a written complaint, as
described in this section. The court may grant relief
under this section as it deems just and in the best
interest of the incapacitated person. For any hearing
to modify or terminate a guardianship, the
incapacitated person shall be given reasonable notice
of the hearing and of the incapacitated person's right
to be represented at the hearing by counsel of his or
her own choosing.
(b) …
(2)(a) An unrepresented person or entity may submit
a complaint to the court. Complaints must be
addressed to one of the following designees of the
court: The clerk of the court having jurisdiction in
the guardianship, the court administrator, or the

Appendix
87
guardianship monitoring program, and must identify
the complainant and the incapacitated person who is
the subject of the guardianship. The complaint must
also provide the complainant's address, the case
number (if available), and the address of the
incapacitated person (if available). The complaint
must state facts to support the claim.
(b) By the next judicial day after receipt of a
complaint from an unrepresented person, the court's
designee must ensure the original complaint is filed
and deliver the complaint to the court.
(c) Within fourteen days of being presented with a
complaint, the court must enter an order to do one or
more of the following actions:
(i) To show cause, with fourteen days' notice,
directing the guardian to appear at a hearing set by
the court in order to respond to the complaint;
(ii) To appoint a guardian ad litem to investigate the
issues raised by the complaint or to take any
emergency action the court deems necessary to
protect the incapacitated person until a hearing can
be held;
(iii) To dismiss the complaint without scheduling a
hearing, if it appears to the court that the complaint:
Is without merit on its face; is filed in other than
good faith; is filed for an improper purpose; regards

Appendix
88
issues that have already been adjudicated; or is
frivolous. In making a determination, the court may
review the matter and consider previous behavior of
the complainant that is documented in the
guardianship record;
(iv) To direct the guardian to provide, in not less
than fourteen days, a written report to the court on
the issues raised in the complaint;
(v) To defer consideration of the complaint until the
next
regularly
scheduled
hearing
in
the
guardianship, if the date of that hearing is within the
next three months, provided that there is no
indication that the incapacitated person will suffer
physical, emotional, financial, or other harm as a
result of the court's deferral of consideration;
(vi) To order other action, in the court's discretion, in
addition to doing one or more of the actions set out in
this subsection.
(d) If after consideration of the complaint, the court
believes that the complaint is made without
justification or for reason to harass or delay or with
malice or other bad faith, the court has the power to
levy necessary sanctions, including but not limited to
the imposition of reasonable attorney fees, costs, fees,
striking pleadings, or other appropriate relief.

Appendix
89
(3) The court may order persons who have been
removed as guardians to deliver any property or
records belonging to the incapacitated person in
accordance with the court's order. Similarly, when
guardians have died or been removed and property or
records of an incapacitated person are being held by
any other person, the court may order that person to
deliver it in accordance with the court's order.
Disobedience of an order to deliver is punishable as
contempt of court.
(4) The Administrative Office of the Courts must
develop and prepare, in consultation with interested
persons, a model form for the complaint described in
subsection (2)(a) of this section and a model form for
the order that must be issued by the court under
subsection (2)(c) of this section.
(5) The board may send a grievance it has received
regarding an active guardian case to the court's
designee with a request that the court review the
grievance and take any action the court deems
necessary. This type of request from the board must
be treated as a complaint under this section and the
person who sent the complaint must be treated as
the complainant. The court must direct the clerk to
transmit a copy of its order to the board. The board
must consider the court order when taking any
further action and note the court order in any final
determination.

Appendix
90
(6) In any court action under this section that
involves a professional guardian, the court must
direct the clerk of the court to send a copy of the
order entered under this section to the board.
(7) The definitions in this subsection apply
throughout this section unless the context clearly
requires otherwise.
(a) "Board" means
guardianship board.

the

certified

professional

(b) "Complaint" means a written submission by an
unrepresented person or entity, who is referred to as
the complainant.

Appendix
91
Declaration of Judge Kathleen M. O'Connor's
Court of Appeals, Division III
Of the State of Washington

No. 33356­6
In Re The Guardianship of Judith Diane
Holcomb, et al.
Incapacitated Persons

Declaration of Kathleen M. O'Connor

I, KATHLEEN M. O'CONNOR, declare that:
1. I am currently a Spokane County Superior Court
Judge and have served in that capacity since 1988.
Prior to being elected to the Superior Court I served
as a Superior Court Commissioner for nine (9) years.
2. As part of my duties as a Superior Court Judge, I
serve as the Chair of the Superior Court
Guardianship Monitoring Committee which in turn
is charged with oversight of the Superior Court
Monitoring Program.
3. In Washington State, Guardianships, although
governed by statute, are nevertheless equitable

Appendix
92
creations of the courts and it is the court that retains
ultimate responsibility for protecting incapacitated
persons and their estates. The Guardianship
Monitoring Committee is a program within the
Superior Court Administrator's Office that facilitates
the furtherance of the Court's responsibility to each
incapacitated person who is under the protection of a
guardianship.
4.In my capacity as chair of the Guardianship
Monitoring Program Committee I was aware that
Appellant Lori Petersen's License to practice as a
Certified Professional Guardian was suspended by
the Washington Supreme Court effective April
27,2015 for a period of one year.
5. Ms. Petersen was the appointed primary guardian
in 31 Spokane County Guardianships in Spokane
County in April, 2015. In another 93 cases she was
appointed as the standby guardian where the
primary guardian was listed as a variety of
guardianship agencies owned by Hallmark Care
Services where she also worked as a bookkeeper.
6. In light of Ms. Petersen's suspension, immediate
action was necessary to replace her as the primary or
standby guardian. The vast majority of the
Guardianships
that
Hallmark/Petersen
were
appointed as Guardians at the time of Ms. Petersen's
suspension involve incapacitated adults who rely on

Appendix
93
subsistence level public assistance as their primary
or sole source of income. The absence of capable
guardians for even a limited period for any of these
incapacitated persons could result in catastrophic
consequences in their quality of life and to the
benefits to which they are entitled.
7. At my request, the Honorable Ellen Clark of the
Superior Court issued an Order Appointing Special
Master to facilitate the appointment of Guardian Ad
Litems who would independently review each
guardianship and submit recommendations for
successor guardians if required.
8. Appellants in this action, Lori Petersen and
Hallmark Care Service, moved for reconsideration of
the "Order Appointing Special Master".
9. After being advised of the motion for
reconsideration, I requested the assistance of the
Office of the Prosecuting Attorney to reply to the
motion for reconsideration pursuant to their duty to
advise the Superior Court under RCW 36.27.020 (3).
See Neal v. Wallace, 15 Wn. App. 506; 550 P.2d 539
(1976). With the approval of Superior Court
Presiding
Judge
Salvatore
Cozza,
Deputy
Prosecuting Attorney Steven Kinn was assigned to
respond to the motion and I was designated as the
contact to advise and consult on the legal issues
surrounding the motion for reconsideration. At the

Appendix
94
same time it was agreed that I would screen myself
from the proceedings and not discuss the pending
motion for reconsideration with Judge Clark. With
the exception of a bond requirement, the motion for
reconsideration was denied by Judge Clark and the
process to appoint successor guardians proceeded.
10. Since Ms. Petersen's suspension, GALs were
appointed in all cases where Ms. Petersen was either
the primary or a standby Guardian for Hallmark
Care Services. Hearings have been held by other
judicial officers with notice to Hallmark and Ms.
Petersen and successor guardians appointed.
11. I have been informed of Hallmark/Petersen's
appeal of the order appointing special master as well
as the final judgments issued assessing GAL fees to
Hallmark as a result of the process to appoint
successor guardians.
12. The real parties in this appeal are the
incapacitated persons who now have the necessary
oversight and stability of newly appointed successor
guardians appointed by the Superior Court. That
oversight and stability was jeopardized by the
suspension of Lori Petersen as a Certified
Professional Guardian.
13. The vast majority of the incapacitated persons in
the guardianships currently on appeal are indigent.

Appendix
95
They lack the resources
representation on their own.

to

obtain

legal

14. At the same time, a ruling by the Court of
Appeals on the process by which the Superior Court
ordered successor guardians to manage this large
number of guardianships in the wake of Ms.
Petersen's suspension has the potential for impacting
the Court's ability to effectively provide guardianship
services for vulnerable adults.
15. No one legal representative of any one
guardianship can adequately represent the interests
of the collective of incapacitated persons who will be
impacted by the large number of guardianship
matters currently on appeal.
16. Therefore, I respectfully request that the Court of
Appeals permit Deputy Prosecuting Attorney Steven
Kinn and the Spokane County Guardianship
Monitoring Program to intervene in a special amicus
curiae status to file all necessary affirmative and
responsive pleadings pursuant to RAP 1.2 (a),
RAP 8.3 and RAP 10.6.
17. All the guardianship appeals appear to have
common legal issues and the Court of Appeals has
consolidated all 124 cases for review.
18. The appeal also appears to assign error to the
process by which appellants were removed as

Appendix
96
guardians from the cases. As such, permitting Mr.
Kinn and the Superior Court Guardianship
Monitoring Program to enter under special amicus
status will "promote Justice and facilitate the
decision of the cases on the merits" under RAP 1.2(a).
The Superior Court's input on the facts and legal
authority for its process in appointing successor
guardians in this large number of guardianships is
essential to a complete resolution of the multiple
cases on appeal.
I certify under penalty of perjury under the laws of
the State of Washington that the foregoing is true
and correct.

June 25 2016 (Date)
Spokane,
s/Kathleen O'Connor/ (Signature)

WA

(Place)

Appendix
97
Declaration of Anastasia Fortson­Kemmerer
Court of Appeals, Division III
Of The State of Washington

No. 33356­6
In Re the Guardianship of Judith Diane
Holcomb, et al.
Incapacitated Persons

Declaration of Anastasia Fortson­Kemmerer

I, ANASTASIA FORTSON­KEMMERER, declares
that:
1. I have been employed since 2008 as Guardianship
Monitoring Program Coordinator within Spokane
County Court Administrator's Office.
2. That my duties include: Supervising the
management of court files for research, audits, visits
and
court
commissioner
reviews.
Assisting
professional and nonprofessional guardians and the
public
regarding
paperwork
and
questions.
Managing and directing daily operations of the
program. Monitoring complaints regarding the

Appendix
98
administration of the guardianship by the Certified
Professional
Guardians
(CPGs).
Resolving
complaints or problems from professional and non­
professional
guardians.
Attending
quarterly
Guardianship Monitoring meetings.
3. Most of the attachments I reference in this
declaration are actual court documents from the files
of Guardianships in Spokane County from official
proceedings in those matters. The remainder are
documents maintained by the Spokane County Court
Administrator's Office. As to those documents, I am
qualified in my capacity as Guardianship Monitoring
Coordinator to testify that they are all documents
made in the regular course of business of the
Spokane County Superior Court and were prepared
at or near the event that gave rise to the document's
preparation.
4. Sometime around April 27, 2015, the Spokane
County Superior Court received the final order of the
Washington State Supreme Court suspending Lori
Petersen as a Certified Professional Guardian for one
year. The Supreme Court also directed Ms. Petersen
to cooperate with the Certified Professional
Guardianship Board (CPGB) to develop a transition
plan to provide for successor guardians due to her
suspension as a Certified Professional Guardian
(CPG).CPBG's subsequent letter to Lori Petersen and
her Attorney's Response to that letter are attached

Appendix
99
(Attachments 1 and 2). Since Ms. Petersen and
Hallmark's attorney were proposing simply replacing
Ms. Petersen with Hallmark as guardians during Ms.
Petersen's suspension, CPBG wanted information on
the ownership/organization and resources of
Hallmark. Ms. Petersen was unresponsive to this
request.
5. At the time of the notice of final suspension, Ms.
Petersen was appointed as a court appointed
Guardian in 32 cases. She was designated as the
designated
standby
guardian
by
Hallmark
Guardianship Agency, which also does business
under the names "Castlemark" and "Eagle"
guardianships in all of their guardianships. (See
Attachment "3")
6. On March 17, 2015, Spokane County Superior
Court Commissioner Rachelle Anderson sent a letter
to
Lori
Peterson.
Commissioner
Anderson
additionally requested that given the Supreme
Court's Order of Suspension, what plan was in place
for a transition to new Guardianships. (Attachment
"4") Her attorney and the attorney for Hallmark
replied on March 18, 2015 that the transition plan
was to substitute Hallmark for Petersen during her
suspension. (Attachment 5)
7. Judge Kathleen O'Connor replied to Petersen's
Attorney's letter proposing that Hallmark simply

Appendix
100
substitute in for Petersen as appointed guardian. In
the letter she indicated that a simple substitution of
Hallmark
for
Petersen
was
unacceptable.
(Attachment 6)
8. Instead of simply permitting the entry of agreed
orders substituting Hallmark for MS Petersen as the
CPG, Superior Court Ellen Clarke issued an order
appointing a special master to set in place a process
to review each guardianship with the assistance of
guardian ad litems. Hallmark's guardianships were
review along with Petersen's because of Petersen's
association with Hallmark and the numerous
complaints concerning its performance in numerous
guardianships in the year prior to Ms. Petersen's
suspension.
9. In 2014­2015, the Spokane County Guardianship
Monitoring Program received numerous Complaints
against
Guardianships involving Lori Peterson,
Hallmark Care Service, Eagle Guardianship Service,
Castlemark and Empire Care and Guardianship.
10. Monitoring Hallmark's compliance with their
Guardianship responsibilities was chaotic given the
extreme turnover of CPG personnel at Hallmark in
2014. Indeed, Hallmark has consistently failed to
place its designation of primary CPG in the court file
in its appointed Guardianships in a timely manner
as required by CR23.

Appendix
101
I declare under penalty of perjury under the laws of
the State of Washington that the foregoing is true
and correct.

08/5/2015 (Date) Spokane, WA(Place) s/Anastasia
Kemmerer/ (Signature)

